App. 1
NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0486n.06
No. 19-1056
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
STEPHEN NICHOLS,

)
)
Plaintiffs-Appellant,
)
v.
)
WAYNE COUNTY,
)
MICHIGAN; WAYNE
)
COUNTY, MICHIGAN
)
PROSECUTOR’S OFFICE; )
CITY OF LINCOLN PARK, )
MICHIGAN; KYM L.
)
WORTHY,
)
Defendants-Appellees. )

ON APPEAL FROM
THE UNITED
STATES DISTRICT
COURT FOR THE
EASTERN DISTRICT
OF MICHIGAN
(Filed Aug. 18, 2020)

Before: MOORE, McKEAGUE, and LARSEN,
Circuit Judges.
LARSEN, Circuit Judge. A police officer seized
Stephen Nichols’ car for its suspected involvement in a
violation of Michigan’s Identity Theft Protection Act.
The car was detained in anticipation of civil forfeiture,
but the prosecutor never instituted forfeiture proceedings. Nichols eventually got his car back after he ﬁled
an action against several local government entities,
asserting, as relevant here, Monell liability under 42
U.S.C. § 1983. See Monell v. Dep’t of Soc. Servs., 436 U.S.
658, 691 (1978). With his car returned to him, Nichols

App. 2
sought damages for the local governments’ alleged failure to provide him with constitutional process. Specifically, he claimed that the Due Process Clause entitled
him to an intervening hearing (after the seizure, but
before any forfeiture hearing) at which he could have
challenged the post-seizure detention of his car prior
to and during any forfeiture proceedings. The district
court disagreed and dismissed his complaint for failure
to state a claim. We afﬁrm because Nichols has failed
to allege a municipal “policy or custom” sufﬁcient to
state a Monell claim under § 1983.
I.
Nichols’ car was seized under Michigan’s Identity
Theft Protection Act (MITPA). Mich. Comp. Laws
(MCL) §§ 445.61-.79d. MITPA prohibits the “use or
[the] attempt to use the personal identifying information of another person” to “[o]btain credit, goods,
services, money, property, a vital record, a conﬁdential
telephone record, medical records or information, or
employment,” or to “[c]ommit another unlawful act.”
MCL § 445.65(1). Any personal property “used, possessed, or acquired in a felony violation of [MITPA]” is
subject to forfeiture. MCL § 445.79(1)(a).
The statute authorizes the state or a local government to seize forfeitable property either “upon process
issued by the circuit court having jurisdiction over
the property” or “without process” if, among other circumstances, there is probable cause to believe that
the property “was used or is intended to be used in

App. 3
violation of [MITPA].” MCL § 445.79a. If the government seizes property without process and the property’s total value “does not exceed $50,000.00,” the
government “shall notify the owner” of the seizure and
of its intent to forfeit the property. MCL § 445.79b(1).
If the owner does not contest the forfeiture within
20 days after receiving the notice, the local government “shall declare the property forfeited.” MCL
§ 445.79b(1)(d).
If the owner contests the forfeiture, he may “ﬁle a
written claim” and post a bond with the government
within 20 days “after receipt of the notice.” MCL
§ 445.79b(1)(c). That claim and bond are then “transmit[ted]” to the government’s “prosecuting attorney.”
Id. The prosecuting attorney then “shall promptly institute forfeiture proceedings after the expiration of
the 20-day period.” Id. Owners may seek to recover
their seized property via “an order and judgment of the
court having jurisdiction over the forfeiture proceedings.” MCL § 445.79b(2).
II.
According to the allegations in Nichols’ complaint,
the events at issue here began when a City of Lincoln
Park police ofﬁcer asked Nichols for proof of auto insurance as part of a trafﬁc stop. When the ofﬁcer determined that the provided insurance certiﬁcate was
invalid, he seized Nichols’ car and gave him a notice
form indicating that the car was subject to forfeiture
under MITPA. The form explained that to contest the

App. 4
forfeiture Nichols would need to ﬁle a “claim of interest” with Lincoln Park and post a $250 bond with
the Wayne County Prosecutor’s Ofﬁce. Nichols did so.
Nichols was not charged with any criminal offense. Instead, he pleaded responsible in state court to the civil
infraction of operating a motor vehicle without proof of
insurance.
Under MITPA, the Wayne County Prosecutor’s Ofﬁce was required to “promptly institute forfeiture proceedings.” MCL § 445.79b(1)(c). Yet, nearly three years
later, the county had not done so, and Nichols’ car had
not been returned.1 So Nichols filed a putative class
action2 in federal court, suing the City of Lincoln Park
and Wayne County (the municipalities) under 42
U.S.C. § 1983.3 He alleged that the municipalities had
1

On the record before us, it is unclear why this happened.
Wayne County’s motion to dismiss attached an email between the
county prosecutor’s ofﬁce and Nichols’ attorney indicating that, at
some point, the assistant prosecutor assigned to Nichols’ case had
decided not to pursue the forfeiture of Nichols’ car but had “overlooked sending that correspondence” to the Lincoln Park Police
Department. The email also indicated that the prosecutor’s ofﬁce
had set up two meetings with Nichols’ attorney, but the attorney
failed to appear both times. But because these facts do not appear
in the complaint, we do not consider them at the motion to dismiss
stage. See Berera v. Mesa Med. Grp., PLLC, 779 F.3d 352, 358 n.7
(6th Cir. 2015) (“Generally, when ruling on a Rule 12(b)(6) motion
to dismiss, courts may not consider information outside the complaint.” (citing Fed. R. Civ. P. 12(d))).
2
The complaint also named Adam and Ryan Chappell as
plaintiffs, but they voluntarily dismissed their claims before any
responsive pleadings were ﬁled.
3
In addition to Lincoln Park and Wayne County, Nichols
sued the Wayne County Prosecutor’s Ofﬁce and Kym Worthy in

App. 5
violated his and all similarly situated persons’ due process rights through their “practice, custom, policy, and
pattern of failing to provide prompt post-seizure, preforfeiture hearings in front of a neutral decisionmaker.” He sought damages as well as declaratory and
injunctive relief.
Upon receiving notice of the lawsuit, Wayne County
released Nichols’ car to him, prompting Nichols to later
voluntarily dismiss his claims for declaratory and injunctive relief. The county sought to have the damages
claim dismissed as well, on the ground that Nichols
had failed to state a claim under Federal Rule of Civil
Procedure 12(b)(6). The county argued that state law
dictated the scope of the county’s forfeiture proceedings and that the county could not, therefore, be held
liable for failing to provide a pre-forfeiture-proceeding
hearing. In the alternative, the county argued that
MITPA’s “promptness” requirement satisﬁed due process.
The district court granted the motion to dismiss.
Although it found that the municipalities do “not routinely provide post-deprivation, pre-forfeiture hearings for civil seizures,” it concluded that the failure to
provide such “an additional hearing d[id] not violate

her ofﬁcial capacity as the Wayne County Prosecutor. The last
two, along with Wayne County itself, constitute a single, county
entity for § 1983 purposes. See Will v. Mich. Dep’t of State Police,
491 U.S. 58, 71 (1989). Nichols also sued Kym Worthy in her individual capacity but voluntarily dismissed that claim prior to the
district court’s ruling.

App. 6
due process.” The district court therefore dismissed
Nichols’ complaint for failure to state a claim.
Nichols timely appealed.
III.
We review de novo a district court’s ruling on a
Rule 12(b)(6) motion. Kaminski v. Coulter, 865 F.3d
339, 344 (6th Cir. 2017). When performing that review,
we generally consider only the facts alleged in the complaint. Berera v. Mesa Med. Grp., PLLC, 779 F.3d 352,
358 n.7 (6th Cir. 2015). We accept those allegations as
true and consider any ambiguity in them in the light
most favorable to the plaintiff, drawing all reasonable
inferences in his favor. Kaminski, 865 F.3d at 344. But
“[l]egal conclusions couched as factual allegations need
not be accepted as true.” Buddenberg v. Weisdack, 939
F.3d 732, 738 (6th Cir. 2019) (citing Bell Atlantic Corp.
v. Twombly, 550 U.S. 544, 555 (2007)). To survive a motion to dismiss, therefore, Nichols “must allege facts
that if accepted as true, are sufﬁcient to state a claim
to relief that is plausible on its face,” Majestic Bldg.
Maint., Inc. v. Huntington Bancshares, Inc., 864 F.3d
455, 458 (6th Cir. 2017) (citing Twombly, 550 U.S. at
555), and “are sufﬁcient to ‘raise a right to relief above
the speculative level,’ ” Rayﬁeld v. City of Grand Rapids, 768 F. App’x 495, 501 (6th Cir. 2019) (quoting Wesley v. Campbell, 779 F.3d 421, 427 (6th Cir. 2015)).
“Threadbare recitals of the elements of a cause of action, supported by mere conclusory statements do not
sufﬁce.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009); see

App. 7
also Bailey v. City of Ann Arbor, 860 F.3d 382, 388 (6th
Cir. 2017) (explaining that “the plausibility standard of
Twombly and Iqbal” applies to Monell claims); Rayﬁeld, 768 F. App’x at 500–01 (applying the plausibility
standard to a Monell claim).
IV.
To state a municipal-liability claim under § 1983,
the plaintiff must allege the deprivation (1) of a right
secured by the Constitution or laws of the United
States, (2) that was directly caused by a municipal policy or custom. Hardrick v. City of Detroit, 876 F.3d 238,
243 (6th Cir. 2017).
Nichols does not seek damages from any individual actor for his role in the seizure and detention of his
car.4 Instead, he has sued only the city and the county
for depriving him of due process by failing to provide
a continued-detention hearing.5 But to prevail in a
4

It is an open question in this circuit “whether a municipality’s liability under § 1983 is predicated on ﬁrst ﬁnding that an
individual ofﬁcer or employee is also liable.” Rayﬁeld, 768 F.
App’x at 511 n.12 (noting conﬂicts in our caselaw). We need not
resolve this question here because we ultimately conclude that
Nichols fails to state a claim under Rule 12(b)(6) on other
grounds. We do note our confusion, however, at the ire this brief
footnote draws from our dissenting colleague. Rayﬁeld ably documented “our unsettled precedent on this issue,” id., and though
the dissent strives to untangle our caselaw, we reiterate that we
are not resolving the question here.
5
Nichols’ complaint appears to seek damages for the prolonged detention of his car, speciﬁcally for the “unnecessary
depriv[ation] of the use of his vehicle, the opportunity to perform
necessary maintenance on it,” for the cost of “insurance for a

App. 8
§ 1983 suit against municipal defendants, Nichols
must still allege, and ultimately prove, a constitutional
violation: “if the plaintiff has suffered no constitutional injury, his Monell claim fails.” North v. Cuyahoga County, 754 F. App’x 380, 389 (6th Cir. 2018)
(citing City of Los Angeles v. Heller, 475 U.S. 796, 799
(1986) (per curiam)). Here, Nichols alleges that he was
unconstitutionally deprived of a property interest—
the possessory interest in his vehicle from the time of
its seizure until its eventual return—without adequate
process. To hold the municipalities liable under Monell,
he must also allege, and ultimately prove, that the municipalities themselves, as opposed to any municipal
employee, were responsible for the prolonged detention
of his vehicle without process. Burgess v. Fischer, 735
F.3d 462, 478 (6th Cir. 2013). (“A municipality ‘may not
be sued under § 1983 for an injury inﬂicted solely by

vehicle that he can’t use,” and the cost in time and money he was
“forced to pay for rides, . . . taxis[,] and inconvenient public transit
to get to and from work and perform daily necessities of life.” But
he did not allege causation—that the municipalities’ failure to
provide an additional hearing caused the prolonged detention of
his car and the attendant harms. To establish causation, he would
have had to allege that he would have prevailed at an intervening
hearing if it had been offered, i.e., that the city would have returned his car earlier. Although Nichols makes that argument on
appeal, he does so for the ﬁrst time. Despite that missing allegation, he might still be entitled to nominal damages for a violation
of his due process rights. See Carey v. Piphus, 435 U.S. 247, 266
(1978) (holding that “the denial of procedural due process [is] actionable for nominal damages without proof of actual injury”). We
need not explore the damages question further, however, because
Nichols’ complaint is otherwise deﬁcient.

App. 9
its employees or agents.’ ” (quoting Monell, 436 U.S. at
694)).
Constitutional Violation. The Fourteenth Amendment’s Due Process Clause prohibits states from
“depriv[ing] any person of . . . property, without due
process of law.” U.S. Const. amend. XIV, § 1. When state
or local governments attempt to deprive an individual
of his property, the Due Process Clause guarantees him
an “opportunity to be heard” in “some form of hearing”
“at a meaningful time and in a meaningful manner.”
Mathews v. Eldridge, 424 U.S. 319, 333 (1976) (quoting
Armstrong v. Manzo, 380 U.S. 545, 552 (1965)).
Just when a hearing must be held to satisfy the
“meaningful time” requirement varies depending on
the kind of property the government seeks to seize. Although due process generally requires “predeprivation
notice and hearing,” in some “extraordinary situations,” a “valid governmental interest . . . justiﬁes postponing the hearing until after the event.” United States
v. James Daniel Good Real Prop., 510 U.S. 43, 53 (1993)
(quoting Fuentes v. Shevin, 407 U.S. 67, 82 (1972)).
Those extraordinary situations include government
seizure of forfeitable property that “could be removed
to another jurisdiction, destroyed, or concealed, if advance warning of conﬁscation were given.” Id. at 52
(quoting Calero-Toledo v. Pearson Yacht Leasing Co.,
416 U.S. 663, 679 (1974)). So, for example, “[t]he seizure of a home” or other real property requires a predeprivation hearing, see id. at 54, 61–62, but the seizure
of a vehicle does not, see Ross v. Duggan, 402 F.3d
575, 583–84 (6th Cir. 2004) (ruling that “pre-seizure

App. 10
hearings are not constitutionally mandated” for cars
because they are “mobile property” (emphasis omitted)).
Seizing property that falls into this “mobile property” exception does not let the government off the dueprocess hook, however. The government must still provide the owner with “notice and a timely post-seizure
[hearing] prior to forfeiture.” Ross, 402 F.3d at 584 (emphasis omitted) (citing United States v. Von Neumann,
474 U.S. 242, 249–50 (1986)). Ordinarily, a forfeiture
hearing is the post-deprivation process. See James
Daniel Good, 510 U.S. at 52–53; Von Neumann, 474
U.S. at 249–50; United States v. Eight Thousand Eight
Hundred & Fifty Dollars ($8,850) in U.S. Currency, 461
U.S. 555, 562 (1983). Nichols argues, however, that
when the property seized is a car—as opposed to, say,
cash or other personal property—due process demands
something more. Relying on Krimstock v. Kelly, 306
F.3d 40, 68 (2d Cir. 2002), Nichols claims entitlement
to a “continued detention hearing,” which would have
allowed him to “dispute the detention of [his] vehicle[ ]
while forfeiture litigation [is] being contemplated or
carried out.” Appellant Br. at 10, 15. Such a hearing,
Nichols argues, is necessary to protect his present possessory interest in his vehicle during the time between
seizure and forfeiture. In essence, he seeks something
akin to a Gerstein hearing or a bail hearing for his car.
See Gerstein v. Pugh, 420 U.S. 103 (1975); County of
Riverside v. McLaughlin, 500 U.S. 44 (1991).
Nichols vacillates regarding the form he envisions for such a hearing. At times he insists that a

App. 11
continued-detention hearing is different than a quickly
ﬁled or “prompt” forfeiture hearing under MITPA;6 it
must be an additional hearing, between the seizure
and the forfeiture hearing. On this theory, the municipalities’ alleged shortcoming is their failure to supplement MITPA’s procedures by setting up a scheme for
holding an additional, interim hearing.
At other times, however, Nichols retreats from this
position, conceding that the municipalities could satisfy the Constitution through the MITPA process itself.
In the district court, Nichols claimed that MITPA forfeiture proceedings were inadequate because they
were not “typically” ﬁled quickly enough. In his brief
before this court, Nichols argues that the municipalities could fulﬁll the putative constitutional requirement of a “continued-detention hearing by making it a
policy to institute forfeiture actions for vehicles no
later than 7 days after the 20-day notice period ends.”
Appellant Br. at 48. At oral argument, he went further,
conceding that a forfeiture proceeding initiated within
6

The use of the word “prompt” may have occasioned some of
the confusion in this case. That term is used in MITPA, which
requires that a prosecuting attorney “shall promptly institute forfeiture proceedings after the expiration of the 20-day period” mentioned in the notice. MCL § 445.79b(1)(c). But the demands of due
process are not deﬁned by state law; the Constitution may require
more, or less, than a state statute. See Rudolph v. Lloyd, 807 F.
App’x 450, 454 (6th Cir. 2020) (explaining that “the minimum
level of process required” is “a question of federal constitutional
law” (citing Silberstein v. City of Dayton, 440 F.3d 306, 315 (6th
Cir. 2006))). We are concerned here with a constitutional question
alone. When we refer to forfeiture proceedings being (or not being)
initiated promptly, we use that term in its constitutional sense.

App. 12
30 days after the 20-day period (that is, 50 days after
a property owner receives notice) would likewise satisfy due process. By Nichols’ own lights, then, a quickly
ﬁled forfeiture hearing under MITPA can satisfy due
process. That concession matters. Nichols, of course,
has no right to elect the means by which the municipalities satisfy the Constitution. If a quickly ﬁled forfeiture hearing can satisfy due process, as Nichols
admits, then the only constitutional question remaining is, how quick would be quick enough?7
We need not answer that constitutional question,
however, because Nichols has failed to show that the
municipalities, as opposed to the unnamed county
prosecutor who failed to institute forfeiture proceedings in his case, worked to deprive him of it. That is,
he has not alleged “deliberate conduct,” “properly attributable to the municipality,” that is the “moving
force” behind the alleged constitutional violation. Bd.
of Cty. Comm’rs v. Brown, 520 U.S. 397, 404 (1997) (emphasis omitted).
Policy or Custom. In Monroe v. Pape, the Supreme
Court held that municipalities were not subject to liability under § 1983. 365 U.S. 167, 187 (1961). Monell
reversed that decision, holding that “Congress intended potential § 1983 liability where a municipality’s own violations were at issue but not where only
the violations of others were at issue. The ‘policy or
7

We do not know the outer boundaries of Nichols’ position,
as the court redirected its line of questioning, once learning that,
at a minimum, Nichols viewed a forfeiture proceeding ﬁled 50
days after notice as satisfying due process.

App. 13
custom’ requirement rests upon that distinction and
embodies it in law.” Los Angeles County v. Humphries,
562 U.S. 29, 37 (2010). It ensures that “ ‘municipal liability under § 1983 attaches where—and only where—
a deliberate choice to follow a course of action is made
from among various alternatives’ by city policymakers.” City of Canton v. Harris, 489 U.S. 378, 389 (1989)
(quoting Pembaur v. City of Cincinnati, 475 U.S. 469,
483 (1986) (plurality opinion)).
At the pleading stage, Nichols may establish that
the municipalities have “such a policy or custom” by
alleging facts that show “(1) the existence of an illegal
ofﬁcial policy or legislative enactment; (2) that an ofﬁcial with ﬁnal decision making authority ratiﬁed illegal actions; (3) the existence of a policy of inadequate
training or supervision; or (4) the existence of a custom
of tolerance or acquiescence of federal rights violations.” Burgess, 735 F.3d at 478.
Nichols has raised only one purported custom or
policy for our review—the municipalities’ failure to
provide a continued-detention hearing, which he concedes could take the form of a sufﬁciently speedy forfeiture proceeding. But he cannot avail himself of the
ﬁrst two Burgess categories. He points to no “ofﬁcial
policy or legislative enactment,” id., instructing prosecutors to drag their feet in instituting MITPA forfeiture hearings. Nor does he aver “that an ofﬁcial with
final decision making authority ratified” or made a

App. 14
decision not to initiate proceedings quickly.8 Id. Accordingly, he must rest solely on the last two categories:
“the existence of a policy of inadequate training or supervision” or, perhaps, “the existence of a custom of tolerance or acquiescence of federal rights violations.” Id.
We address these arguments in turn.
Failure to Train. We begin with Nichols’ allegation
that the county prosecutor “failed to train and supervise attorneys acting for the defendants in the need to
. . . provide for prompt post-seizure, pre-forfeiture
hearings in front of neutral decision maker.” This allegation fails to state a claim. When a plaintiff attempts
to establish municipal liability based on a “failure to
train employees,” he must show the municipality’s “deliberate indifference to constitutional rights.” Arrington-Bey v. City of Bedford Heights, 858 F.3d 988, 994
(6th Cir. 2017) (citing City of Canton, 489 U.S. at 388).
But “a municipal policymaker cannot exhibit fault rising to the level of deliberate indifference to a constitutional right when that right has not yet been clearly
established.” Id. (quoting Hagans v. Franklin Cty. Sheriff ’s Ofﬁce, 695 F.3d 505, 511 (6th Cir. 2012)).9 Nichols

8

Although the complaint names Wayne County Prosecutor,
Kym Worthy, as “the ﬁnal policy maker for the municipal Defendants” and claims she is “responsible for this unconstitutional
practice, custom, policy and pattern,” such “threadbare recitals”
do not sufﬁce. Iqbal, 556 U.S. at 678. The only factual allegation
Nichols makes with respect to Worthy’s conduct concerns the failure-to-train claim, which we address below.
9
Before this court, Nichols does not dispute that, to the extent his complaint alleges a failure-to-train theory, his is the type

App. 15
has not directed us to any “Supreme Court or Sixth
Circuit case that” establishes his right to the initiation
of forfeiture proceedings within 50 days of notice, or
indeed within any particular time frame. See id. at 993.
He refers us only to two out-of-circuit decisions, which
is alone insufﬁcient to “clearly establish” a constitutional right. Id.; see also Rayﬁeld, 768 F. App’x at 512.
Moreover, one of those decisions has been vacated by
the Supreme Court, Smith v. City of Chicago, 524 F.3d
834, 835 (7th Cir. 2008), vacated and remanded sub
nom. Alvarez v. Smith, 558 U.S. 87 (2009), and the other
gave no speciﬁcs on timing, requiring only that “claimants be given a prompt postseizure retention hearing,”
while leaving “the details of . . . implementation . . . to
the experience of the district court and the knowledge
of the parties.” Krimstock, 306 F.3d at 68-69. Rather
than point us to any clearly established time frame
within which post-seizure hearings must be initiated,
Nichols asks us to draw that line for the ﬁrst time in
his case. That is fatal to his failure-to-train claim.
Arrington-Bey, 858 F.3d at 995.
Failure to institute constitutionally prompt forfeiture proceedings. We can also readily dispatch Nichols’
related claim that the municipalities have a custom or
policy of failing to promptly institute the forfeiture proceedings provided for under MITPA. As he now explains it, municipalities may satisfy the Constitution
either by holding a continued-detention hearing, separate and apart from any forfeiture proceeding, or by
of case to which the “clearly established” rule from Arrington-Bey
applies. See Appellant Br. at 50–51; Reply Br. at 23.

App. 16
instituting a forfeiture proceeding quickly enough under MITPA (within 50 days of notice). But because
Nichols is not entitled to elect his preferred procedures, he can adequately state a constitutional claim
only if he alleges both that the municipalities have a
custom or policy of failing to provide a stand-alone continued-detention hearing and that the municipalities
have a custom or policy of failing to initiate constitutionally-timely MITPA forfeiture proceedings. Yet
Nichols’ only allegation about the timing of forfeiture
proceedings is that “[i]t can take months, or even years,
for the [municipalities] to initiate a case in state court
seeking forfeiture of the vehicle.” The mere assertion
that it can take months or years to initiate a forfeiture
proceeding does not allege a “policy or custom” to that
effect. He points neither to an “ofﬁcial policy or legislative enactment,” Burgess, 735 F.3d at 478, nor to a
“well settled” “course of action deliberately chosen from
among various alternatives,” Doe v. Claiborne County,
103 F.3d 495, 507–08 (6th Cir. 1996) (quoting Monell,
436 U.S. at 691). In short, he has failed to allege a “custom or policy” that would show that his “injury ar[ose]
directly from a municipal act.” Arrington-Bey, 858 F.3d
at 994.
The most that could be said for Nichols’ complaint
in this regard is that it “relies on the absence of a policy” that would require county prosecutors to more
quickly initiate forfeiture proceedings. Id. at 995. But,
as in Arrington-Bey, that is just another way of saying
that the municipalities failed to train the prosecutors
to bring forfeiture hearings within the putative 50-day

App. 17
window. See id.; see also City of Canton, 489 U.S. at 386
n.5 (noting that respondent’s allegation that “city had
a ‘custom’ of denying medical care . . . appears to be little more than a restatement of her ‘failure-to-train as
policy’ claim”). “With such a claim, [Nichols] must show
that the allegedly violated right was clearly established. And for the reasons noted earlier, [he] cannot do
so.” Arrington-Bey, 858 F.3d at 995.
***
Nichols has failed to state any claim on which relief can be granted. We therefore AFFIRM the district
court’s dismissal of Nichols’ complaint.

McKEAGUE, Circuit Judge, concurring. I join the majority opinion in full. I write separately because I conclude that even if there were no Monell problem here,
Nichols would still lose on the merits. Nichols asks us
to apply the Mathews factors to determine whether
the municipalities were constitutionally required to
provide a continued-detention hearing before the ultimate forfeiture proceedings. Mathews v. Eldridge,
424 U.S. 319, 334–35 (1976). [Appellant Br. at 18-25.]
The Second Circuit applied those factors in Krimstock
v. Kelly and held that due process required New York
City to afford plaintiffs “a prompt post-seizure, prejudgment hearing” “to test the probable validity of the
City’s deprivation of their vehicles pendente lite, including probable cause for the initial warrantless seizure.” 306 F.3d 40, 67, 70 (2d Cir. 2002). On the other

App. 18
side, the municipalities argue, and the district court
found, that this continued-detention hearing was not
constitutionally required under the Supreme Court’s
decision in United States v. Von Neumann, 474 U.S. 242
(1986). [Lincoln Park Br. at 12–15; Wayne County Br.
at 22; R. 11, PID 135.] I think the municipalities have
the better argument. Under Von Neumann, the municipalities do not need to provide a continued-detention
hearing because that hearing is not necessary to a
timely forfeiture proceeding.
To understand Von Neumann, we ﬁrst need to consider the Court’s earlier opinion in United States v.
Eight Thousand Eight Hundred & Fifty Dollars
($8,850) in U.S. Currency, 461 U.S. 555 (1983). There,
Customs ofﬁcials at the Los Angeles airport seized
$8,850 from the plaintiff, who had declared that she
was not carrying more than $5,000. Id. at 558–59. Customs informed the plaintiff that she could ﬁle a “petition for remission or mitigation,”1 which she did a
week later, in September 1975. Id. While her petition
was still pending, the Customs agent investigated and
eventually recommended criminal proceedings against
the plaintiff. Id. at 560. The case went to trial, which
ended in December 1976, when the plaintiff was
1

Petitions for remission or mitigation are requests for executive ofﬁcials to exercise their discretion and remit or mitigate
ﬁnes, penalties, or forfeitures, or to discontinue prosecution. See
19 U.S.C. § 1618. The executive ofﬁcial must ﬁrst make a ﬁnding
that the penalty or forfeiture was “incurred without willful negligence or without any intention on the part of the petitioner to defraud the revenue or to violate the law” or of such “mitigating
circumstances as to justify the remission or mitigation.” Id.

App. 19
convicted on one count and acquitted on the other. Id.
Then in March 1977, after an inquiry from the plaintiff ’s lawyer, Customs notiﬁed her that a forfeiture
claim “had been referred to the U.S. Attorney.” Id. at
560. Finally, two weeks later, the government ﬁled a
complaint seeking forfeiture in federal district court.
Id. The plaintiff claimed that the government’s “dilatory” processing of her petition and initiation of the
suit violated her due-process rights. Id. at 561. The Supreme Court disagreed.
The Court explained that “[u]nlike the situation
where due process requires a prior hearing, there is no
obvious bright line dictating when a post-seizure hearing must occur.” Id. at 562. Instead, the Court analogized the forfeiture process “to a defendant’s right to a
speedy trial once an indictment or other formal process
has issued.” Id. at 564. Accordingly, it applied the
speedy-trial factors from Barker v. Wingo, 407 U.S. 514
(1972), which consider, on a case-by-case basis, the
“length of delay, the reason for the delay, the defendant’s assertion of his right, and prejudice to the defendant.” $8,850, 461 U.S. at 564.2 Applying those factors,
the Court determined that, under the circumstances
present there, the “Government’s delay in instituting
civil forfeiture proceedings was reasonable.” Id. at 569.

2

To be clear, Nichols is not arguing that the delay in initiating forfeiture proceedings in his case was unlawful under the
framework announced in $8,850. Rather, under Nichols’ theory,
the due process problem stemmed from the lack of a continueddetention hearing.

App. 20
A few years later, the Court decided the case of
United States v. Von Neumann. 474 U.S. 242. Like
$8,850, Von Neumann addressed the seizure of property by Customs ofﬁcials. There, as here, government
authorities seized the plaintiff ’s car. Von Neumann,
474 U.S. at 245. More speciﬁcally, Von Neumann tried
to bring a newly purchased car into the United States
without declaring it, and Customs seized the car. Id.
Like the plaintiff in $8,850, Von Neumann ﬁled a petition for remission and mitigation. Id. He then posted
bond for the total value of the car—$24,500—and Customs ofﬁcials released the car to him. Id. at 245–46.
Thirty-six days after the seizure, the Secretary of the
Treasury notiﬁed Von Neumann that the penalty for
his failure to declare had been mitigated to $3,600. Id.
at 246. Von Neumann argued that the thirty-six-day
delay violated his due process rights. Id. at 246–247.
The Supreme Court disagreed. Von Neumann argued that “his property interest in his car g[a]ve[ ] him
a constitutional right to a speedy disposition of his remission petition without awaiting a forfeiture proceeding.” Id. at 249. The Court rejected this argument,
explaining that “[i]mplicit in this Court’s discussion of
timeliness in $8,850 was the view that the forfeiture
proceeding, without more, provides the postseizure
hearing required by due process to protect Von Neumann’s property interest in the car.” Id. at 249 (emphasis added). It concluded by noting that “remission
proceedings are not necessary to a forfeiture determination, and therefore are not constitutionally required.
Thus there is no constitutional basis for a claim that

App. 21
[Von Neumann’s] interest in the car, or in the money
put up to secure the bond, entitles him to a speedy answer to his remission petition.” Id. at 250.
Taking these cases together, here’s where the law
stands. When property has been seized without a preseizure hearing, the owner of the property is entitled
to a post-seizure hearing. United States v. James Daniel Good Real Prop., 510 U.S. 43, 53 (1993). The government must timely initiate that post-seizure hearing,
and timeliness is measured on a case-by-case basis via
the speedy-trial test. $8,850, 461 U.S. at 565; Von Neumann, 474 U.S. at 251. Finally, due process’s postseizure requirement is satisﬁed by a timely “forfeiture
proceeding[ ] without more.” Von Neumann, 474 U.S. at
249–51. Anything more than a timely forfeiture proceeding is “not constitutionally required.” Id. at 250.
Nichols disagrees with this framework and argues
that, at least when it comes to cars, the Due Process
Clause requires a continued-detention hearing, where
a claimant can challenge the government’s retention of
the car prior to the ultimate forfeiture judgment. He
relies primarily on Krimstock. There the Second Circuit reviewed a New York City ordinance that permitted police to seize, as “instrumentalit[ies]” of the crime,
the cars of those accused of drunk driving or other
crimes. Krimstock, 306 F.3d at 43–44. The plaintiffs
did not challenge either the seizures or the forfeiture
proceedings; they challenged only their inability to
“promptly” challenge the “legitimacy of and justiﬁcation for the City’s retention of the vehicles prior to
judgment in any civil forfeiture proceeding.” Id. at 44.

App. 22
The court agreed with the plaintiffs, holding that the
Due Process Clause entitled vehicle owners to an additional hearing “promptly after their vehicles are
seized” in which they could “challenge the City’s continued possession of his or her vehicle during the pendency of [forfeiture] proceedings.” Id. at 44, 70.
Krimstock, in a footnote, offered three grounds on
which to distinguish Von Neumann: (1) Von Neumann
was reviewing the timeliness of a remission petition
under the customs laws, not the failure to provide a
continued-detention hearing; (2) the plaintiff in Von
Neumann could have ﬁled a Rule 41(g) motion3 under
the Federal Rules of Criminal Procedure to challenge
the seizure and retention of the vehicle; (3) Customs
released Von Neumann’s car on bond. 306 F.3d at 52
n.12. The dissent adopts this same analysis, arguing
that Von Neumann’s interest in a timely remission petition is different from Nichols’ interest in using his car
before the ultimate forfeiture action. Nichols attempts
to distinguish Von Neumann on these same grounds
and additionally argues that the Supreme Court’s
statement that forfeiture proceedings alone satisfy due
process is dictum. [Appellant Br. at 38–43.]
These arguments are not sufﬁcient to distinguish
Von Neumann. Start with the contention that Von
3

Von Neumann and Krimstock refer to Rule 41(e), but “[i]n
2002, this subsection was redesignated Rule 41(g) without substantive change.” Brown v. United States, 692 F.3d 550, 552 (6th
Cir. 2012) (quoting De Almeida v. United States, 459 F.3d 377,
380 n.2 (2d Cir. 2006)). For clarity, I’ll refer to the rule throughout
as Rule 41(g).

App. 23
Neumann does not control because it was reviewing
only the timeliness of remission petitions. Although
this was the context in which the case arose, the Court
in no way limited its language to that particular context. Instead, it said “forfeiture proceedings, without
more,” satisfy due process’s post-seizure-hearing requirement. Von Neumann, 474 U.S. at 249.4
Nichols argues that the statement above was
merely dictum. I disagree. The Court began by framing
the plaintiff ’s argument as asserting a “constitutional
right to a speedy disposition of his remission petition
without awaiting a forfeiture proceeding.” Id. (emphasis added). The Court then stated that it disagreed and
began its analysis with the proposition that the forfeiture hearing, by itself, satisﬁes due process. Id. From
that premise, it reasoned that because “remission proceedings are not necessary to a forfeiture determination” they are “not constitutionally required.” Id. at 250
(emphasis in original). The Court then concluded:
“Thus there is no constitutional basis for a claim that
[Von Neumann’s] interest in the car, or in the money
put up to secure the bond, entitles him to a speedy answer to his remission petition.” Id. (emphasis added).
Because the Court’s holding—the thirty-six-day delay
in the remission proceedings did not violate due process—was derived from the premise that due process
4

The dissent makes much of how the Court said the forfeiture proceeding was all that was required “to protect Von Neumann’s property interest in the car.” Von Neumann, 474 U.S. at
249. I do not see how this phrase renders Von Neumann’s property interest in the car fundamentally different, as a matter of
due process, from Nichols’ property interest in his car.

App. 24
requires nothing more than a timely forfeiture proceeding, the premise was essential to the Court’s holding and gives us the rule of decision. See Wright v.
Spaulding, 939 F.3d 695, 701 (6th Cir. 2019) (noting
that a legal conclusion that is “necessary” or “contribute[s] to the judgment” is part of an opinion’s holding).5
Nichols next tries to distinguish Von Neumann
based on the availability of Federal Rule of Criminal
Procedure 41(g). The dissent also ﬁnds Rule 41(g) relevant in arguing that Von Neumann is distinguishable.
That rule permits a person “aggrieved by an unlawful
. . . seizure of property or by the deprivation of property” to “move for the property’s return.” Fed. R. Crim.
P. 41(g). Krimstock likewise made this distinction, noting that the plaintiffs in that case had no alternative
mechanism for challenging the initial seizure or continued detention of their vehicles, whereas Rule 41(g)
provided the plaintiff in Von Neumann with such a
mechanism. 306 F.3d at 52 n.12, 58–60. But Von Neumann’s reasoning does not turn on the availability of
Rule 41(g). A Rule 41(g) motion is not necessary to a
forfeiture determination and so it is not constitutionally required under Von Neumann. See 474 U.S. at 250.
Unsurprisingly then, Von Neumann makes no mention
of Rule 41(g) anywhere in its constitutional analysis.
See id. at 249–51. Instead, its sole reference to the Rule
5

Even if this conclusion were dictum, I would still adhere to
it. “[L]ower courts are obligated to follow Supreme Court dicta,
particularly where there is not substantial reason for disregarding it, such as age or subsequent statements undermining its rationale.” Holt v. City of Battle Creek, 925 F.3d 905, 910 (6th Cir.
2019) (quoting In re Baker, 791 F.3d 677, 682 (6th Cir. 2015)).

App. 25
comes in a footnote in its discussion of the background
of the case. Id. at 244 n.3. That footnote, relying on
$8,850, notes only that “[t]he claimant may trigger the
Government’s initiation of forfeiture proceedings.” Id.
For its part, $8,850 considers Rule 41(g) in its discussion of the third Barker factor—the defendant’s assertion of the right to a judicial hearing. 461 U.S. at
568–69. Because in that case the claimant had not ﬁled
a Rule 41(g) motion or taken advantage of other means
of asserting her right to a forfeiture hearing, the Court
concluded that there was good reason to believe that
she “did not desire an early judicial hearing.” Id. at
569. Thus, in considering the timeliness of a forfeiture
proceeding using the factors set forth in $8,850 and
Von Neumann, a claimant in a state without a Rule
41(g) analogue obviously could not be faulted for not
asserting her rights in that fashion. But nothing in either $8,850 or Von Neumann suggested that the absence of a Rule 41(g)-type procedure would compel the
state to provide an entirely separate hearing.
Finally, Nichols, again echoing Krimstock, argues
that Von Neumann is distinguishable because there,
while he was waiting for Customs to begin the remission proceedings, the claimant still had access to his
car, after he’d posted a bond equal to the car’s full
value. See Von Neumann, 474 U.S. at 245–46. The dissent also ﬁnds this factor persuasive. For several reasons, I do not think this is enough to distinguish the
case.

App. 26
First, the Supreme Court barely even mentioned
this fact. After discussing the return of Von Neumann’s
car in the facts section, the Court never explicitly returned to it in its analysis. See Von Neumann, 474 U.S.
at 245–46. If the release of the car was crucial to the
holding, you’d think the Court would have discussed it
more.
Second, the statutory mechanism by which the car
was released in Von Neumann was wholly discretionary. Under 19 U.S.C. § 1614, “the appropriate customs
ofﬁcer may” release a seized vehicle to “any person
claiming an interest in” and willing to “pay the value
of such” vehicle, “subject to the approval of the Secretary of the Treasury.” Customs chose to exercise its discretion to release Von Neumann’s vehicle, but it was
not required to. What is more, the Court had the discretionary statutory release scheme before it and it did
not condition the satisfaction of Von Neumann’s due
process rights on the government’s use of that discretion. Instead, it held that only those procedures that
were “necessary to a forfeiture determination” were
“constitutionally required.” Id. at 250. And the release
of Von Neumann’s car was not necessary to the forfeiture determination. Had the government chosen not to
release the car, in my view, the result in Von Neumann
would not have changed.
Third, even putting these ﬁrst two points aside, I
am not convinced that the government’s retaining of
the full cash value of Von Neumann’s car—rather than
the car itself—distinguishes the case. On this question,
Nichols argues that we should give greater protections

App. 27
to property interests in cars than to those in money.
[OA Audio at 3:00-6:10.] However, somebody else made
this same basic argument: Von Neumann himself. Like
Nichols, Von Neumann argued that “the importance of
automobiles to citizens in this society,” merited greater
due process protection. Von Neumann, 474 U.S. at 250–
51. But the Supreme Court rejected that argument,
stating, “we have already noted that . . . a forfeiture
proceeding meeting the Barker test,”—that is, one that
is constitutionally prompt—“satisﬁes any due process
right with respect to the car and the money.” Id. at 251
(emphasis added). Thus, the municipalities’ retention
of Nichols’ car does not change the due-process analysis; Nichols is not constitutionally entitled to any hearing beyond a timely forfeiture hearing. And so, Nichols
still cannot escape the conclusion that Von Neumann
is indistinguishable.
Nichols’ remaining arguments also fail. He relies
on two additional circuit precedents: Smith v. Chicago,
524 F.3d 834 (7th Cir. 2008), vacated by Alvarez v.
Smith, 558 U.S. 87 (2009), and Ross v. Duggan, 402
F.3d 575 (6th Cir. 2004). But Smith is no help because
“[a]ll in all, [it] agree[s] with Krimstock”; it even adopts
Krimstock’s analysis distinguishing Von Neumann.
Smith, 524 F.3d at 837–38. I disagree with Smith for
the same reasons I disagreed with Krimstock.
Ross does not help either. That case was also about
seized cars, and the plaintiffs had the opportunity for
a post-seizure “show-cause” hearing to contest both the
temporary seizure and permanent forfeiture. 402 F.3d
at 578, 583. The Ross plaintiffs argued that these

App. 28
procedures were constitutionally deﬁcient, because of,
among other things, the costs of going without the car
while waiting for the show-cause hearing. Id. at 586.
We disagreed and held that a property owner’s due
process rights are not violated “as long as the owners
received reasonable notice and a fair post-impoundment-but-pre-forfeiture opportunity to contest ultimate
forfeiture.” Id. at 586 (emphasis added). Indeed, Ross
cites Von Neumann for that proposition: In the absence
of a pre-seizure hearing, “a timely post-seizure opportunity to be heard prior to forfeiture” satisﬁes due
process. Id. at 584 (citing Von Neumann, 474 U.S. at
249–50). The court’s reliance on Von Neumann reinforces how one post-seizure opportunity to contest the
ultimate forfeiture is what sufﬁces for due process.
Ross thus does not establish a right to a second postseizure, pre-forfeiture hearing.
Applying Von Neumann, I conclude that the Due
Process Clause guarantees only a timely forfeiture
hearing, that timeliness being measured, as the Supreme Court has held, by the factors announced in
Barker v. Wingo. Because Nichols is not constitutionally entitled to an additional continued-detention
hearing—between the seizure and the forfeiture hearing—there was no due process right for the municipalities to violate.

KAREN NELSON MOORE, Circuit Judge, dissenting
in part. There are many things the majority does not
deny about Stephen Nichols’s case. It does not deny

App. 29
that he was wrongfully deprived of the use of his car
for three years. It does not deny that he had a dueprocess interest in the use—not just the ownership—
of his vehicle. It does not deny that he has plausibly
alleged that the municipal defendants failed to afford
him any opportunity to seek temporary repossession
of his car. It does not deny that these defendants had
the discretion to do so under the relevant statutory
scheme. Nor does it deny that our caselaw forecloses
qualified immunity as a defense for municipal defendants when the injury for which they are allegedly liable was caused by municipal act itself. Yet it denies
Nichols recourse because Nichols’s lawyer stated at
oral argument that there were multiple ways for the
government to go about affording his client due process. Even if I were inclined to decide serious constitutional cases based on “gotcha” moments at oral argument, this would not be one of them. Nichols did not
concede a ﬂaw in his claim—to the contrary, he conﬁrmed just how modest a due-process right he seeks.
In my view, Nichols has adequately stated a constitutional claim, and we should allow this case to proceed.
As the district court noted, “[i]t is undisputed that
Defendants do not routinely provide post-deprivation,
pre-forfeiture hearings for civil seizures.” Nichols v.
County of Wayne, No. 18-12026, 2018 WL 6505360, at
*2 (E.D. Mich. Dec. 11, 2018). Nichols claims that this
failure to provide an opportunity for claimants to regain possession of their property is unconstitutional.
The defendants respond that Nichols has sued the
wrong entities, because the MITPA, for which they are

App. 30
not responsible, requires them to retain all seized vehicles, without exception. The majority does not reach
the merits of Nichols’s claim that the defendants’ policy is unconstitutional, nor does it address the defendants’ argument about state law tying their hands.
Instead, it ﬁrst suggests in dicta that (1) Nichols might
be precluded from making a municipal-liability claim
when there has been no finding of individual-defendant
liability, and that (2) Nichols might have failed to allege that the defendants caused him damages. It then
holds that Nichols’s claim fails because he has not alleged that the municipal defendants have a policy of
failing to institute timely forfeiture proceedings. Below, I explain why each of these propositions is incorrect.
First, the majority states that “[i]t is an open question in this circuit ‘whether a municipality’s liability
under § 1983 is predicated on ﬁrst ﬁnding that an individual ofﬁcer or employee is also liable.’ ” Maj. Op. at
5 n.4 (quoting Rayﬁeld v. City of Grand Rapids, 768 F.
App’x 495, 511 n.12 (6th Cir. 2019)). The majority’s
statement is erroneous, but it is true that several opinions issued after the ﬁrst published one resolving this
question have muddied the waters. Originally, we
stated that “it is possible that city ofﬁcials may be entitled to qualiﬁed immunity for certain actions while
the municipality may nevertheless be held liable for
the same actions.” Barber v. City of Salem, 953 F.2d
232, 238 (6th Cir. 1992); see also Garner v. Memphis
Police Dep’t, 8 F.3d 358, 365 (6th Cir. 1993) (“Under
the law of this circuit, a municipality may not escape

App. 31
liability for a § 1983 violation merely because the
officer who committed the violation is entitled to
qualified immunity.”). This scenario could arise if a
municipal employee, acting pursuant to a municipal
policy or custom, committed a constitutional violation,
but escaped personal liability because the plaintiff ’s
constitutional right was not clearly established at the
time of the violation.
But in Winkler v. Madison County, 893 F.3d 877
(6th Cir. 2018), the panel mistakenly said that our decision in Watkins v. City of Battle Creek, 273 F.3d 682
(6th Cir. 2001), “broadly state[d] that the imposition of
municipal liability is contingent on a ﬁnding of individual liability under § 1983.” 893 F.3d at 900. Yet Watkins does not say this. It says only that “[i]f no
constitutional violation by the individual defendants is
established, the municipal defendants cannot be held
liable under § 1983.” 273 F.3d at 687 (emphasis added).
Winkler’s gloss on Watkins was plainly incompatible
with our prior, published holdings—that the precondition for municipal liability is the presence of a constitutional violation, not a ﬁnding of individual liability.
On this speciﬁc issue regarding municipal liability,
there was no confusion until Winkler introduced it.
Thus, citing to Winkler, we uttered the line that the
majority now quotes: “It is undecided whether a municipality’s liability under § 1983 is predicated on ﬁrst
ﬁnding that an individual ofﬁcer or employee is also
liable.” Rayﬁeld, 768 F. App’x at 511 n.12. It should be
clear, by now, that this statement was in error. There is
no “open question in this circuit,” Maj. Op. at 5 n.4,

App. 32
about whether a plaintiff must ﬁrst show individual
liability in order to show municipal liability. Our controlling precedent says that there is no such requirement.1 See 6 Cir. R. 32.1(b).
Beyond the qualiﬁed-immunity escape hatch,
there are still other instances in which a lack of individual liability will not foreclose a municipal-liability
claim. As Judge Cole’s thoughtful concurrence in Epps
v. Lauderdale County, 45 F. App’x 332 (6th Cir. 2002),
lays out, there are numerous ways in which municipalities themselves may be held responsible for constitutional violations, including when “a government actor
in good faith follows a faulty municipal policy,” when
“municipal liability is based on the actions of individual government actors other than those who are
named as parties,” and when “no one individual government actor . . . violate[s] a victim’s constitutional
rights,” but the combined acts of a group of actors cause
such a violation. Id. at 334-35 (citing cases); see North
v. Cuyahoga County, 754 F. App’x 380, 390 (6th Cir.
2018) (“In a subset of § 1983 cases . . . the fact that no
individual defendant committed a constitutional violation—e.g., acted with deliberate indifference to an inmate’s serious medical need—might not necessarily
‘require a finding that no constitutional harm has
been inﬂicted upon the victim, nor that the municipality is not responsible for that constitutional harm.’ ”)

1

I note that the defendants make no argument to the contrary. It is the majority—not the defendants—that ﬂoats this unsupported, alternative barrier to relief.

App. 33
(quoting Epps, 45 F. App’x at 334 (Cole, J., concurring)).
Again, the defendants do not argue otherwise.
Next, the majority suggests in a footnote that
there may have been a “missing allegation” in Nichols’s
complaint as to whether the municipality actually
caused him damages. Maj. Op. at 6 n.5. But the plain
language of the complaint proves the majority wrong:
“Nichols has been and continues to be damaged by the
Defendants’ failure to provide a prompt post-deprivation hearing because he has been unnecessarily deprived of the use of his vehicle, the opportunity to
perform necessary maintenance on it, expended money
on insurance for a vehicle that he can’t use, and has
been forced to pay for rides, use taxis and inconvenient
public transit to get to and from work and perform
daily necessities of life.” R. 1 (Compl. ¶ 26) (Page ID
#6–7). The majority faults Nichols for not “alleg[ing]
that he would have prevailed at an intervening hearing if it had been offered,” Maj. Op. at 6 n.5, but ignores
that he speciﬁcally alleges that continued deprivation
of his vehicle imposes an immense hardship on him, R.
1 (Compl. ¶ 26) (Page ID #6–7). I take this as an allegation that a retention hearing, focusing on hardship,
would come out in his favor. Even if the majority were
correct that Nichols failed to lay out causation for purposes of calculating compensatory damages, he need
not make this showing for nominal damages. See Carey
v. Piphus, 435 U.S. 247, 266 (1978) (“[T]he denial of procedural due process should be actionable for nominal
damages without proof of actual injury.”). There is thus
no deﬁciency in Nichols’s complaint with respect to

App. 34
alleging that the municipal defendants caused him
damages. And regardless, the defendants have forfeited any argument to this effect. Once again, the majority improperly raises—but does not resolve—an
argument that no defendant has made in this case.
The majority then sets up its holding by pointing
to Nichols’s lawyer’s statement at oral argument that
either a prompt retention hearing or a quickly initiated forfeiture proceeding would comply with the Constitution. See Maj. Op. at 12. According to the majority,
“because Nichols is not entitled to elect his preferred
procedures, he can adequately state a constitutional
claim only if he alleges both that the municipalities
have a custom or policy of failing to provide a standalone continued-detention hearing and that the municipalities have a custom or policy of failing to initiate
constitutionally-timely MITPA forfeiture proceedings.”
Id. Nichols’s complaint lacks sufﬁcient allegations regarding the defendants’ failure to institute timely forfeiture proceedings, says the majority, so his claim
fails. See id. (“The mere assertion that it can take
months or years to initiate a forfeiture proceeding does
not allege a ‘policy or custom’ to that effect.”).
This misreads Nichols’s complaint and misunderstands the nature of liability under Monell v. Department of Social Services of City of New York, 436
U.S. 658 (1978). First, the majority omits the following
allegation from Nichols’s complaint: “On information
and belief, Defendants notice for forfeiture hundreds
of vehicles every year, hold them without process,
and fail, in each case, to provide prompt post-seizure,

App. 35
pre-forfeiture hearing in front of a neutral decisionmaker.” R. 1 (Compl. ¶ 43) (Page ID #10). Combined
with Nichols’s allegation that “[i]t can take months, or
even years, for the Defendants to initiate a case in
state court seeking forfeiture of the vehicle,” id. ¶ 4
(Page ID #2), this constitutes a plausible allegation
that the municipal defendants are not regularly initiating forfeiture proceedings in a timely fashion. If the
municipal defendants regularly initiated forfeiture
proceedings within, for example, one week of the
expiration of the twenty-day period described in
§ 445.79b(1)(c) of the MITPA, there would be no basis
for Nichols alleging a failure to provide “prompt” retention hearings—prompt forfeiture proceedings would
obviate the need for them. To read the complaint more
narrowly is to ignore the thrust of Nichols’s claim in
this case: The municipal defendants, as a policy or custom, are allowing too much time to pass without giving
claimants a chance to repossess their property.
Moreover, Nichols is not required under Monell to
make allegations regarding the frequency with which
the municipal defendants take months or years to initiate forfeiture proceedings. One of the ways a plaintiff
can demonstrate an “illegal policy or custom” under
Monell is by showing “the existence of a custom of tolerance or acquiescence of federal rights violations.”
Burgess v. Fischer, 735 F.3d 462, 478 (6th Cir. 2013).
Even if the defendants delayed initiating forfeiture
proceedings on a minority of occasions, per Nichols’s
complaint they would still have a custom of permitting
constitutional violations on each of these occasions by

App. 36
not providing retention hearings. Put another way, it is
sufﬁcient for Nichols to allege that in situations in
which forfeiture proceedings are delayed, the municipal
defendants routinely violate property owners’ constitutional rights by not providing retention hearings.
Relatedly, the majority suggests that Nichols’s articulations of the municipal defendants’ policy and how
he wants it ﬁxed are too vague to make out a constitutional claim. Speciﬁcally, the majority states that “[w]e
do not know the outer boundaries of Nichols’ position,
as the court redirected its line of questioning, once
learning that, at a minimum, Nichols viewed a forfeiture proceeding ﬁled 50 days after notice as satisfying
due process.” Maj. Op. at 9 n.7. This is false: Thirty
days is the outer boundary that Nichols’s counsel readily supplied upon questioning at oral argument. The
following colloquy transpired:
Judge:

If a forfeiture hearing is
held without exception
seven days after the
person evidences objection to the forfeiture, is
there a bail hearing
necessary?

Counsel for Nichols: No.
Judge:

If it’s held a year later,
is a bail hearing necessary in the middle?

Counsel for Nichols: Yes.

App. 37
Judge:

OK. At what point do we
draw that line?

Counsel for Nichols: I would submit that the
history of due process
. . . points to something
like 30 days, at a minimum.
OA Audio at 11:00–11:29. Note that Nichols’s counsel
did not say, “A hearing after 30 days would provide due
process but I couldn’t tell you where exactly to draw
the line.” In fact, he took an unambiguously clear position: The constitutional minimum required—or in
other words, the temporal boundary that the government may not exceed—is 30 days. This is “the outer
boundar[y] of Nichols’ position.” Maj. Op. at 9 n.7.
When the majority says that Nichols has not told us
“how quick would be quick enough,” id. at 9, it simply
ignores his precise answer to this question. Per Nichols, 30 days would be quick enough, as would be 29
days, 28 days, 27 days, or any lesser amount of time.
And conversely, per Nichols, 31 days would not be
quick enough, nor would 32 days, 33 days, 34 days, or
any greater amount of time. How could Nichols have
been any clearer? I am unpersuaded by the majority’s
efforts to unearth ﬂaws in Nichols’s well-pleaded complaint.
Instead, I believe Nichols has plausibly alleged
the existence of a policy or custom not to provide an
opportunity for seized-vehicle owners to repossess
their vehicles while forfeiture proceedings are pending.
Accordingly, I would proceed to an analysis of whether

App. 38
Nichols has alleged the existence of a policy or custom
that violates the Constitution. But because the majority does not reach the constitutional question, I will
keep my observations about this question brief.
The threshold issue is whether precedent from the
Supreme Court or this court forecloses the due-process
inquiry. The City2 argues that the Supreme Court’s
decisions in United States v. Eight Thousand Eight
Hundred & Fifty Dollars ($8,850) in U.S. Currency, 461
U.S. 555 (1983), and United States v. Von Neumann,
474 U.S. 242 (1986), “conﬁrm[ed] that the due process
right to a meaningful post-seizure hearing requires
only a forfeiture proceeding.” Appellee City Br. at 15.
But neither of these cases determined whether the
government is required to provide the purported owners of seized property with a prompt opportunity to
demonstrate that their property need not be retained
pending resolution of forfeiture proceedings. In $8,850,
the Supreme Court held that the government’s eighteen-month delay in initiating a forfeiture proceeding
over seized currency did not violate a claimant’s right
to due process of law. 461 U.S. at 569. The question of
retaining versus releasing seized property, pending
the resolution of the forfeiture action, was not at issue. The petitioner “challenge[d] only the length of
time between the seizure and the initiation of the forfeiture trial.” Id. at 564. Because the issue was limited
to the timing of this proceeding, and whether it was
2

The Defendant County, like the majority, “does not take
a position on the ultimate constitutional question.” Appellee
County Br. at 5.

App. 39
unconstitutionally delayed, the Court applied the
speedy-trial test from Barker v. Wingo, 407 U.S. 514
(1972), to determine that a delay in commencing the
forfeiture proceedings was justiﬁed. 461 U.S. at 564. By
contrast, Nichols’s claim “does not concern the speed
with which civil forfeiture proceedings themselves are
instituted or conducted.” Krimstock v. Kelly, 306 F.3d
40, 68 (2d Cir. 2002) (Sotomayor, J.), cert. denied, 539
U.S. 969 (2003).
Von Neumann is similarly distinguishable. The
claimant in that case challenged only “a 36-day delay
by the United States Customs Service in responding to
a remission petition,” not the continued deprivation of
his property while his forfeiture case was pending. 474
U.S. at 243. Indeed, two weeks after the claimant’s car
was seized, he posted a $24,500 bond for the car and
reestablished possession of it, but still ﬁled suit to challenge the length of time it took the government to decide whether to institute forfeiture proceedings at all.
Id. at 245–46. Whereas Von Neumann sought timely
adjudication of a remission petition to terminate a forfeiture proceeding, Nichols sought the use of his car
while it was undetermined whether he would ultimately have to forfeit it. Von Neumann did not seek
due-process protection for any such interest in the use
of the vehicle; he had enjoyed the use of his car since
he posted bond and the car was released to him. See id.
at 245. Thus, Von Neumann does not resolve the issue
before us because retention of a seized vehicle implicates a unique property interest, and thus triggers

App. 40
unique due-process protections.3 See Krimstock, 306
F.3d at 53 (“[I]t a non sequitur to hold . . . that because
postponing the commencement of a forfeiture action
pending the underlying criminal proceeding may not
offend due process, retention of the seized vehicle without a hearing throughout that same period, or longer,
is constitutionally permissible.”). Furthermore, Nichols’s predicament is distinguished from Von Neumann’s in that the MITPA bars “action[s] to recover
personal property.” Mich. Comp. Laws § 445.79b(2). By
contrast, Von Neumann had the ability to ﬁle a motion
under Federal Rule of Criminal Procedure 41(g) for return of the seized property during the forfeiture litigation.4
3

The fact that Nichols acknowledged at oral argument that
prompt commencement of forfeiture proceedings could satisfy his
due-process concern does not turn this into a redux of the Von
Neumann case. Nichols does not demand more speedy initiations
of the proceedings that ultimately determine whether owners
have to forfeit ownership of their property, but rather more
speedy determinations of whether they can use their property
while ownership determinations are pending. His “concession,”
Maj. Op. at 9, at oral argument is consistent with this theory:
Whether through a prompt forfeiture hearing or a prompt retention hearing, due process requires that an owner be permitted to
challenge the continued dispossession of her or his personal property.
4
The City argues that Von Neumann’s ability to ﬁle a Rule
41(g) motion is not relevant to the due-process analysis, because
the option to ﬁle such a motion under the Federal Rules of Criminal Procedure was lost once forfeiture proceedings were initiated,
and resolving such a motion could itself be subject to substantial
delay. Neither of these attempts to minimize the import of a Rule
41(g) motion is persuasive. The ﬁrst argument overlooks a primary reason a claimant might pursue relief through a Rule 41(g)

App. 41
Judge McKeague’s concurring opinion ignores the
distinction between different types of due-process interests. This is clearest in the opinion’s selective quotation of the “forfeiture proceedings, without more”
phrase from Von Neumann. See Concurring Op. at 455
(“[The Supreme Court] said ‘forfeiture proceedings,
without more,’ satisfy due process’s post-seizure-hearing requirement. Von Neumann, 474 U.S. at 249.”). The
Supreme Court’s full statement was as follows: “Implicit in this Court’s discussion of timeliness in $8,850
was the view that the forfeiture proceeding, without
more, provides the postseizure hearing required by due
process to protect Von Neumann’s property interest in
the car.” 474 U.S. at 249 (emphasis added). The concurring opinion reads the emphasized words out of the Supreme Court’s opinion. The Court properly limited its
due-process analysis to the precise due-process interest at stake, something the concurring opinion wishes
not to do. Relatedly, the concurring opinion takes out
of context Von Neumann’s statement that “a forfeiture
proceeding meeting the Barker test satisﬁes any due
process right with respect to the car and the money.”
474 U.S. at 251. This statement appeared as the Court
motion—delay in the initiation of forfeiture proceedings. The second argument suggests that seeking judicial review of seized
property is of little value, because such review could be delayed.
Possible judicial delay notwithstanding, a Rule 41(g) motion to
return property is an important tool for claimants. As the Advisory Committee has explained, the Rule “provides that . . . a person whose property has been lawfully seized may seek return of
property when aggrieved by the government’s continued possession of it.” Fed. R. Crim. P. 41(g), Advisory Committee Notes (1989
Amendment) (emphasis added).

App. 42
entertained, brieﬂy, whether the remission procedure
“itself creates a property right which cannot be taken
away without due process that includes a speedy answer to a remission petition.” Id. at 250 (emphasis
added). Thus, even when reasoning hypothetically, the
Court addressed due-process rights that were linked to
“timely disposition” of a remission petition—not to
temporary repossession of a vehicle. Id.
The concurring opinion also states that “[i]f the release of the car was crucial to the [Von Neumann] holding, you’d think the Court would have discussed it
more.” Concurring Op. at 20. But why would we expect
exposition from the Supreme Court on due-process
protections for a property interest that had nothing to
do with the case that the Court was deciding? Similarly, the fact that the property-release procedure in
the case (19 U.S.C. § 1614) was “wholly discretionary,”
Concurring Op. at 20, was irrelevant to the case—it did
not alter the nature of Von Neumann’s property interest. The concurring opinion speculates that, “in [its]
view,” the holding of Von Neumann “would not have
changed” if the facts had been critically different. Id.
at 21. I fail to see the relevance of such conjecture,
which represents “a counterfactual hypothetical [that
the Court] [wa]s powerless . . . to decide.” Espinoza v.
Montana Dep’t of Revenue, 140 S. Ct. 2246, 2295 (2020)
(Sotomayor, J., dissenting). Whether Von Neumann repossessed his car as a matter of government rule or
discretion, the point is that his lawsuit had to do with
timely disposition of a federal remission petition, not
conditional repossession of a seized vehicle.

App. 43
All parties cite our decision in Ross v. Duggan, 402
F.3d 575 (6th Cir. 2004), for support, but that case did
not address the issue before us. In Ross, we addressed
a constitutional challenge to the City of Detroit’s enforcement of Michigan’s nuisance-abatement statute,
which resulted in the seizure and impoundment of
the plaintiffs’ vehicles. See generally Mich. Comp. Laws
§ 600.3801 et seq. As relevant here, the plaintiffs argued that insufﬁcient postimpoundment procedures
denied them due process. We found this cause of action
“facially deﬁcient” due to the presence of probable
cause justifying the initial seizures, “as long as the
owners received reasonable notice and a fair postimpoundment-but-pre-forfeiture opportunity to contest ultimate forfeiture.” Ross, 402 F.3d at 586. Unlike
in this case, however, “the plaintiffs were each afforded
an opportunity to request a prompt post-impoundment
‘show-cause’ hearing to challenge both the temporary
seizure and the threatened permanent forfeiture,”
which, if successful, “would result in the immediate
restoration” of their vehicles. Id. at 583. Nichols was
not afforded such an opportunity. In Ross, we did not
consider whether procedural due process would be
lacking if the City of Detroit had detained the plaintiffs’ vehicles indefinitely without a preforfeiture,
show-cause hearing, because the plaintiffs conceded
that “each of them had received notice and an opportunity to contest the threatened nuisance-abatement
forfeitures of their motor vehicles at a ‘show-cause’
hearing.” Id. at 586.

App. 44
Without any precedent resolving the issue before
us, I would follow the Second Circuit’s unanimous
opinion in Krimstock v. Kelly—the only published, appellate opinion on point5—in concluding that the failure to provide some sort of retention hearing for
purported owners of seized property violates the Constitution. In Krimstock, then-Judge Sotomayor wrote
for a unanimous panel that New York City’s vehicleforfeiture scheme, which allowed the city to “seize a
motor vehicle following an arrest for the state-law
charge of driving while intoxicated (‘DWI’) or any other
crime for which the vehicle could serve as an instrumentality” without any sort of subsequent retention
hearing, violated the Fourteenth Amendment, inter
alia. 306 F.3d at 44. Under the balancing test set forth
in Mathews v. Eldridge, 424 U.S. 319 (1976), the court
reasoned that the private interest in the ownership
and use of a vehicle was signiﬁcant, the risk of erroneous deprivation was “reduced” given the “context of
DWI owner-arrestees,” and the government’s interest
was low, given alternative methods—such as the posting of bond in exchange for a seized vehicle—in preventing an owner from absconding with this property.
Krimstock, 306 F.3d at 64. “Balancing the Mathews factors,” the Second Circuit concluded that due process of
law required a hearing in which a claimant could
demonstrate that “means short of retention of the vehicle can satisfy the City’s need to preserve it from
5

The Seventh Circuit issued a similar opinion, but the Supreme Court vacated it as moot. See Smith v. City of Chicago, 524
F.3d 834 (7th Cir. 2008), vacated as moot sub nom. Alvarez v.
Smith, 558 U.S. 87 (2009).

App. 45
destruction or sale during the pendency of proceedings.” Id. at 67.
If anything, the Mathews factors support Nichols’s
claim even more than they supported the plaintiffs’
claim in Krimstock. First, as to the weight of the private interest, “the length or ﬁnality of the deprivation,”
Logan v. Zimmerman Brush Co., 455 U.S. 422, 434
(1982), is greater here than in Krimstock. Under New
York City law, then-Judge Sotomayor noted, the City
was required to bring a forfeiture action “twenty-ﬁve
days after a claim is made for the vehicle.” Krimstock,
306 F.3d at 54 (citing 38-A R.C.N.Y. § 12–36(a)). Under
the MITPA, by contrast, the only temporal requirement is that the prosecuting attorney must bring a forfeiture action “promptly” after receiving the property
claim and bond. Mich. Comp. Laws § 445.79b(1)(c).
There is no speciﬁc deadline, even when the property
owner has demanded that her property be returned.
Cf. Krimstock, 306 F.3d at 54 (leaving the timing of initiating a forfeiture action up to the “discretion” of the
New York City Property Clerk only when “no demand
is made” by the owner of the property). The private interest is thus even weightier here than in Krimstock.6
6

Language from our decision in United States v. Kingsley,
241 F.3d 828 (6th Cir.), cert. denied, 534 U.S. 859 (2001), regarding the privilege of operating a motor vehicle is not to the contrary. In Kingsley, we reviewed a district court’s ban on a
defendant’s probationary operation of motorized vehicles. Id. at
838. In response to the defendant’s argument that such a ban unduly deprived him of personal liberty, we observed that “operating a motor vehicle on the public thoroughfares, under any
circumstances, is not a fundamental personal right, but instead is

App. 46
Second, the risk of erroneous deprivation is more
signiﬁcant here. In Krimstock, the Second Circuit
noted the low risk of erroneous deprivation in the case
of DWI arrestees whose cars were seized “because a
trained police ofﬁcer’s assessment of the owner-driver’s
state of intoxication can typically be expected to be
accurate.” 306 F.3d at 62–63. Similarly, in People v. One
1998 GMC, 960 N.E.2d 1071 (Ill. 2011), cert. denied,
566 U.S. 1034 (2012), the Illinois Supreme Court emphasized that it was unlikely that a police ofﬁcer would
be mistaken about probable cause “especially for
crimes such as the DUI and DWLR offenses involved
here.” Id. at 1087. Probable-cause determinations under the MITPA, by contrast, are more complex. Unlike
assessing a driver’s blood-alcohol content, the determination of whether a person, “[w]ith intent to defraud or
violate the law,” has unlawfully used another person’s
identifying information is less immediately veriﬁable.
Mich. Comp. Laws § 445.65(1)(a). The statute itself
recognizes the numerous circumstances that may not
qualify as fraud under the MITPA, for instance when
a mere societally-bestowed privilege, granted by the grace of the
state, which an adult citizen must earn, and which the government can restrict or invalidate, even administratively, in the rational furtherance of a legitimate public purpose.” Id. Apart from
the narrower question of an individual’s “right” to operate a vehicle on public thoroughfares, however, we have stated clearly that
an individual may have a substantial “interest” in both owning
and utilizing a vehicle. Henry, 655 F. App’x at 462. Nichols has
not alleged that the temporary seizure of his vehicle infringed on
his substantive rights; he merely argues that given the signiﬁcant
weight of his interest in this vehicle, he is due a commensurate
level of process before the vehicle may be retained by the government.

App. 47
the accused uses the identifying information of a person with their consent (unless the person giving consent knows that the information will be used to commit
an unlawful act), when the accused had been acting in
otherwise lawful enforcement of a person’s legal rights,
or when the accused had given “a bona ﬁde gift” to a
person in exchange for use of their identifying information. Id. § 445.65(2)(a), (b), (d). To be clear, these circumstances are listed as defenses in the statute, id.
§ 445.65(2), and the validity of probable cause is not
dependent on the viability of a defense, see Fridley v.
Horrighs, 291 F.3d 867, 873 (6th Cir. 2002); moreover,
an ofﬁcer’s judgment that probable cause exists should
be accorded “due weight,” Ornelas v. United States, 517
U.S. 690, 699 (1996). Still, determining at a trafﬁc stop
whether a driver knowingly used another person’s
identifying information is more complex than determining whether the driver was “operating while intoxicated.” Mich. Comp. Laws § 257.625(1). The risk of an
erroneous deprivation of property here is thus higher
than the “reduced” risk in Krimstock. 306 F.3d at 62.
On balance, here the private interest is substantial, the erroneous risk of deprivation is moderate,
there is considerable value in additional safeguards,
and the government’s interest is low. Accordingly, the
Mathews balancing test tips in Nichols’s favor. For
these reasons, I would follow the Second Circuit in
holding that vehicle owners must be afforded a prompt,
postseizure hearing before a neutral decisionmaker to
determine whether “means short of retention of the vehicle can satisfy the [government’s] need to preserve it

App. 48
from destruction or sale during the pendency of proceedings.” Krimstock, 306 F.3d at 67.
The majority suggests that, alternatively, Nichols’s
claim is barred for failure to allege the violation of a
clearly established right. But this clearly-establishedright defense does not apply “[w]hen an injury arises
directly from a municipal act, . . . because fault and
causation obviously belong to the city.” Arrington-Bey
v. City of Bedford Heights, 858 F.3d 988, 994–95 (6th
Cir. 2017), cert. denied, 138 S. Ct. 738 (2018).7 “[T]here
is a signiﬁcant difference between a Monell claim alleging that a municipal policy or custom caused a constitutional violation . . . and a Monell claim alleging
that a municipality’s failure to train amounted to deliberate indifference.” Brennan v. Dawson, 752 F. App’x
276, 288 (6th Cir. 2018). When the ﬁrst type of Monell
claim is at issue, as is the case here, the violated right
need not be clearly established. Id. The majority argues that, as in Arrington-Bey, the policy-based Monell
claim here is actually a failure-to-train claim, so the
clearly-established-right defense applies. But we said
nowhere in Arrington-Bey that claims based on a municipality’s failure to institute a policy were per se
identical to claims based on municipality’s failure to
train their employees. All we said in that case was that
a plaintiff relying on a deliberate-indifference theory
of municipal liability had to do more than show the
7

By contrast, the defense does apply to Nichols’s failure-totrain allegation against Kim Worthy, in her ofﬁcial capacity, and
thus I agree with the majority that this claim fails. See Maj. Op.
at 10–11.

App. 49
lack of a policy. See Arrington-Bey, 858 F.3d at 995 (“In
a deliberate-indifference case, the claimant must show
not only that an employee’s act caused a constitutional
tort, but also that the city’s failure to train its employees caused the employee’s violation and that the city
culpably declined to train its ‘employees to handle recurring situations presenting an obvious potential for
such a violation.’ ”) (quoting Bd. of Cty. Comm’rs of
Bryan Cty. v. Brown, 520 U.S. 397, 409 (1997)). This
case, unlike Arrington-Bey, is not about the actions of
individual municipal employees and whether a municipality’s deliberate indifference in training them is
what led to the alleged harm. Rather, Nichols alleges
that the City and County had a policy of failing to provide retention hearings for owners of vehicles seized
pursuant to the MITPA. This claim does not involve
failure-to-train allegations, and therefore Nichols need
not demonstrate that these municipal defendants violated a clearly established right.
***
In all, the majority manages to avoid remedying
a significant constitutional violation by focusing on
one line uttered by Nichols’s counsel at oral argument. This utterance was not a concession of error,
but a clarification of just how narrow the scope of this
case is. Although the majority does not resolve the
constitutional question in this case, it sanctions the
warrantless, three-year deprivation of Nichols’s vehicle, despite the government’s undisputed failure to
offer him any means of challenging this prolonged
deprivation. Those following trends in our court’s

App. 50
jurisprudence will note that in the span of a single
month, we have countenanced stripping thousands of
indigent Tennesseans of their driver’s licenses, see
Robinson v. Long, 966 F.3d 521 (6th Cir. 2020) (Cole,
C.J., dissenting from denial of rehearing en banc), and
seizing Michiganders’ vehicles without a chance for
them to demonstrate, pendente lite, the extreme hardship posed by such seizure. Neither precedent nor prudence compels this trend. For these reasons, and the
ones stated above, I dissent.

App. 51
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
STEPHEN NICHOLS, individually and on behalf of all
others similarly situated,
Plaintiff,

Case No. 18-12026

v.
COUNTY OF WAYNE et al.
Defendants.

/

OPINION AND ORDER GRANTING IN PART
DEFENDANTS’ “MOTION TO DISMISS OR
ABSTAIN OR, IN THE ALTERNATIVE,
FOR SUMMARY JUDGMENT”
(Filed Dec. 11, 2018)
This is a § 1983 procedural due process claim revolving around state property forfeiture procedures.
Pending before the court is a “Motion to Dismiss or to
Abstain, or in the alternative, for Summary Judgment”
filed by the “Wayne County Prosecutor’s Office” and
defendant Kym Worthy. (Dkt. #6.) Plaintiff Stephen
Nichols ﬁled a response (Dkt. #9), and Defendants ﬁled
a reply (Dkt. #10.) The court concludes that a hearing
is unnecessary. See E.D. Mich. LR 7.1(f )(2). For the reasons stated below, the court will grant the Motion in
part, dismissing the complaint for failure to state a
claim.

App. 52
I.

BACKGROUND

Plaintiffs Stephen Nichols, Adam Chappell, Jr.,
and Ryan Chappell ﬁled a putative class action complaint naming as defendants the County of Wayne, “the
Wayne County Prosecutor’s Ofﬁce,” the Wayne County
Prosecutor Kym Worthy in her ofﬁcial and individual
capacity, the “Wayne County Sheriff ’s Ofﬁce,” and the
City of Lincoln Park. (Dkt. #1.) The complaint alleged
municipal liability under 42 U.S.C. § 1983 for violations of the Fourteenth Amendment and sought declaratory and injunctive relief. (Id., PageID 13–14.) A few
months after it was ﬁled, two of the three named Plaintiffs voluntarily dismissed their claims and they, along
with the “Sheriff ’s Ofﬁce,” were terminated from the
case. (Dkt. #3.) This left Wayne County, “the Wayne
County Prosecutor’s Ofﬁce,” Kym Worthy, and the City
of Lincoln Park as Defendants in the case.
The facts underlying remaining Plaintiff Nichols’
claim are as follows. Stephen Nichols, while driving an
automobile, was pulled over by a Lincoln Park police
ofﬁcer and ticketed for driving an uninsured vehicle.
(Dkt. #1, PageID 6.) He presented an invalid insurance
certiﬁcate to the ofﬁcer and his car was conﬁscated under the forfeiture provisions of Michigan’s Identity
Theft Protection Act. (Id.) He ﬁled a claim of interest
and posted a bond to contest the forfeiture. Wayne
County failed to ﬁle a civil forfeiture case against the
vehicle and Nichols’ car was not returned to him until
he ﬁled this lawsuit. He is challenging the process of
the county’s seizure and forfeiture procedure.

App. 53
Defendants “the Wayne County Prosecutor’s Ofﬁce” and Kym Worthy ﬁled a “Motion to Dismiss or to
Abstain, or in the alternative, for Summary Judgment.” (Dkt. #6.)1 In Plaintiff ’s response, he voluntarily dismissed his claim against Defendant Kym Worthy
in her individual capacity and dismissed his demand
for declaratory and injunctive relief. (Dkt. #9, PageID
120.) What remains of the Motion concerns Plaintiff ’s
§ 1983 municipal liability claim against Wayne
County2 for Fourteenth Amendment violations. Plaintiff ’s claim is that Defendants have “an unconstitutional practice . . . of failing to provide prompt postseizure, pre-forfeiture hearings in front of a neutral
decision-maker where . . . persons had vehicles seized
without a warrant or a pre-deprivation hearing.” (Dkt.
#1, PageID 13.) Defendants argue, among other things,
that this claim fails because Plaintiff cannot show an
underlying constitutional violation. (Dkt. #6, PageID
45-47.)

1

Defendant City of Lincoln Park did not join in the Motion
but asserted Plaintiff ’s failure to state a claim as an afﬁrmative
defense in its Answer. (Dkt. #8, PageID 91.)
2
Neither a Michigan “Prosecutor’s Ofﬁce” nor a “Sheriff ’s
Ofﬁce” (or “Department”) is a legal entity amenable to suit under
§ 1983. Anthony v. Chylinski, 2008 WL 4239204, at *2 (E.D. Mich.
Sept. 11, 2008). A suit against Kym Worthy in her ofﬁcial capacity
as County Prosecuting Attorney is considered a claim against
Wayne County itself. See Will v. Mich. Dep’t of State Police, 491
U.S. 58, 91 (1989).

App. 54
II.

STANDARD

A court may dismiss a complaint for “failure to
state a claim upon which relief can be granted” under
Federal Rule of Civil Procedure 12(b)(6). “To survive a
motion to dismiss, a litigant must allege enough facts
to make it plausible that the defendant bears legal liability.” Agema v. City of Allegan, 826 F.3d 326, 331 (6th
Cir. 2016) (citing Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009)). A complaint “requires more than labels and
conclusions,” and must allege facts that “raise a right
to relief above the speculative level.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007).
In determining plausibility, “a court must construe
the complaint in the light most favorable to the plaintiff [and] accept all factual allegations as true.” United
States v. Brookdale Senior Living Communities, Inc.,
892 F.3d 822 (6th Cir. 2018) (internal citations omitted). “The purpose of Rule 12(b)(6) is to allow a defendant to test whether, as a matter of law, the plaintiff is
entitled to legal relief even if everything alleged in the
complaint is true.” Mayer v. Mylod, 988 F.2d 635, 638
(6th Cir. 1993) (internal citation omitted). Stated differently, Rule 12(b)(6) acts “to enable defendants to
challenge the legal sufﬁciency of complaints without
subjecting themselves to discovery.” Yuhasz v. Brush
Wellman, Inc., 341 F.3d 559, 566 (6th Cir. 2003) (internal citation omitted).

App. 55
III.

DISCUSSION

As expressed in the Fourteenth Amendment,
states may not “deprive any person of life, liberty, or
property, without due process of law.” U.S. Const.
amend. XIV, § 1. “The fundamental requirement of
due process is the opportunity to be heard ‘at a meaningful time and in a meaningful manner.’ ” Mathews v.
Eldridge, 424 U.S. 319, 333 (1976) (internal citation
omitted). It is a ﬂexible standard, and the court balances three factors to determine what process is appropriate in a speciﬁc situation. Id. (internal citations
omitted). These factors are: “[1] the private interest
that will be affected by the ofﬁcial action; [2] the risk
of an erroneous deprivation of such interest through
the procedures used, and the provable value, if any, of
additional or substitute procedural safeguards, and [3]
the Government’s interest, including the function involved and the ﬁscal and administrative burdens that
the additional or substitute procedural requirement
would entail.” Id. (citing Goldberg v. Kelly, 397 U.S.
254, 263–71 (1970)).
A Michigan municipality or other local government unit is liable under 42 U.S.C. § 1983 “for constitutional injuries for which it is responsible.” Morgan v.
Fairﬁeld Cty., 903 F.3d 553, 565 (2018) (citing Monell
v. Dep’t of Soc. Servs., 436 U.S. 658, 690 (1978)). This
responsibility encompasses “harms caused by direct
actions of the municipalities themselves, harms caused
by the implementation of municipal policies or customs, and harms caused by employees for whom the

App. 56
municipality has failed to provide adequate training.”
Id. (internal citations omitted).
Plaintiff ’s Complaint alleges that Wayne County’s
liability arises here from a “policy, practice, custom or
pattern of not providing these hearings” and in a failure to train attorneys to conduct them. (Dkt. #1,
PageID 13–14.) It is undisputed that Defendants do
not routinely provide post-deprivation, pre-forfeiture
hearings for civil seizures. Wayne County argues that
this “policy” is merely its compliance with Michigan’s
forfeiture statute. The statute does not require such a
hearing and has been found constitutional by both
Michigan state courts and federal courts. (Dkt. #10,
PageID 123–25, 128.) See Michigan v. Milwaukee 3/8"
Cordless Drill, 2011 WL 3268646, at *9 (W.D. Mich.
July 29, 2011) (“Michigan forfeiture law provides owners of property with notice of seizure and an opportunity to be heard.”); Nelson v. McDonough, 2011 WL
1539764, at *3 (W.D. Mich. April 21, 2011) (“The Michigan courts have held that the availability of notice and
a hearing under [the Michigan forfeiture statute] affords an adequate remedy satisfying due process.”)
(collecting Michigan state court cases).
Defendants argue that their lack of routine postdeprivation, pre-forfeiture hearings for civil seizures
does not constitute a due process violation. Plaintiff ’s
argument that it does appears to be primarily based on
Krimstock v. Kelly, 306 F.3d 40 (2d Cir. 2002), which he
cites in his response brief. (Dkt. #9, PageID 112.) This
opinion from a different jurisdiction is persuasive at
best; it does not bind. Similarly persuasive-at-best is

App. 57
People v. One 1998 GMC, 960 N.E.2d 1071 (Ill. 2011),
which rejects Krimstock. The court will address the
reasoning of each.
In Krimstock, the Second Circuit focused on three
speciﬁc due process concerns in holding that plaintiffs
must be given a prompt opportunity to contest the
holding of their vehicle pending the civil forfeiture action. First, it noted the temporal gap between seizure
and forfeiture proceedings, which can be “months or
sometimes years.” Krimstock, 306 F.3d at 54. Next, it
noted a “special concern for the risk of erroneous deprivation posed to innocent owners.” Id. at 56. Finally, it
noted the lack of other forms of interim relief. Id. at
58–60. Here, however, the Michigan forfeiture statute requires that the county’s prosecuting attorney
“promptly institute forfeiture proceedings” when a forfeiture is disputed. Mich. Comp. Laws § 333.7523. If a
complaint is not ﬁled promptly, a violation of state law
occurs which could be addressed in state court. See,
e.g., In re Forfeiture of One 1983 Cadillac, 439 N.W.2d
346 (Mich. Ct. App. 1989). Also of note is that the Supreme Court of the United States upheld another
Michigan forfeiture procedure that did not permit an
innocent owner defense. Bennis v. Michigan, 516 U.S.
442, 446 (1996).
Moreover, as the Supreme Court of Illinois pointed
out, “it appears that Krimstock was wrongly decided in
light of the Supreme Court precedent.” One 1998 GMC,
960 N.E.2d at 1082. Indeed, in United States v. Von
Neumann, 474 U.S. 242 (1986), the Court held that, in
relation to an owner’s property interest in their car, a

App. 58
“forfeiture proceeding, without more, provides the
postseizure hearing required by due process.” Id. at
249. The Supreme Court of the United States has
not found the Due Process Clause to require a postdeprivation, pre-forfeiture hearing, and neither does
this court.
Wayne County’s “policy” of not providing an additional hearing does not violate due process. Because
the forfeiture procedure Wayne County follows, as
Plaintiff alleges, provides both notice and an opportunity to be heard, Plaintiff ’s complaint fails to state a
claim upon which relief can be granted.
Furthermore, Plaintiff ’s sole claim and argument
against Defendant City of Lincoln Park is identical to
that against Wayne County. As Plaintiff had the opportunity to respond to the argument in its Response to
the other Defendants’ Motion and there is no relevant
factual or legal distinction between the claim against
the City of Lincoln Park and Wayne County, the court
will dismiss the claim with respect to the City of Lincoln Park as well. See Tingler v. Marshall, 716 F.2d
1109 (6th Cir. 1983) (requiring, before a district court
dismiss a claim sua sponte for failure to state a claim,
that a plaintiff have notice of the arguments for the
claim’s dismissal and a chance to respond to them).
Accordingly,

App. 59
IT IS ORDERED that Defendants’ Motion (Dkt.
#6) is GRANTED and Plaintiff ’s Complaint is DISMISSED as to all Defendants.3
s/Robert H. Cleland
ROBERT H. CLELAND
UNITED STATES DISTRICT JUDGE
Dated:

December 11, 2018

I hereby certify that a copy of the foregoing document
was mailed to counsel of record on this date, December
11, 2018, by electronic and/or ordinary mail.
s/Lisa Wagner
Case Manager and Deputy Clerk
(810) 292-6522

3

Because is relief is appropriate based upon Defendants’ request for dismissal under 12(b)(6), the court need not address the
alternative arguments for abstention and summary judgment.

App. 60
No. 19-1056
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
STEPHEN NICHOLS,

)
)
Plaintiff-Appellant,
)
v.
)
)
ORDER
WAYNE COUNTY, MICHIGAN;
)
WAYNE COUNTY, MICHIGAN (Filed Nov. 23, 2020)
)
PROSECUTOR’S OFFICE;
)
CITY OF LINCOLN PARK,
)
MICHIGAN; KYM L. WORTHY,
)
Defendants-Appellees.
)
BEFORE: MOORE, McKEAGUE, and LARSEN,
Circuit Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original submission and decision of the case. The petition then was
circulated to the full court.* No judge has requested a
vote on the suggestion for rehearing en banc.

* Judge White recused herself from participation in this ruling.

App. 61
Therefore, the petition is denied.
ENTERED BY ORDER OF
THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 62
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Stephen Nichols, Adam
Chappell, Jr., and Ryan
Chappell, individually and
on behalf of all others
similarly situated,
Plaintiffs,
-vsCounty of Wayne, Wayne County
Prosecutor’s Ofﬁce, Kym Worthy,
in her ofﬁcial and individual
capacity, Wayne County Sheriff ’s
Ofﬁce, and City of Lincoln Park,
jointly and severally,
Defendants
Godwin Legal Services, PLC
Shaun P. Godwin (P74500)
Attorney for Plaintiffs
450 W Fort St, Ste 200
Detroit, Michigan 48226
313-288-2826/Fax: 313-457-1670
shaun@godwinlegal.com

Case No.
Hon.
Complaint and
Jury Demand.
Class Action.
Declaratory and
Injunctive Relief.

App. 63
CLASS ACTION COMPLAINT
AND JURY DEMAND
(Filed Jun. 27, 2018)
NOW COME Plaintiffs, by and through their attorney, for their Complaint, do hereby allege as follows:
INTRODUCTION
1. This case arises from the retention of motor
vehicles (“vehicles”) that were seized by law enforcement agencies in Wayne County without a warrant or
a pre-deprivation hearing and noticed for possible civil
forfeiture in the hopes of obtaining a cash settlements
or title to the vehicles through use of civil forfeiture
proceedings.
2. Since at least July of 2015, the Defendants noticed Plaintiffs and similarly situated persons of their
intention to seek forfeiture of their vehicles and held
those vehicles in custody, while contemplating the possible initiation of civil forfeiture proceedings in state
court.
3. At no time did the Defendants provide Plaintiffs and similarly situated persons with a prompt
post-seizure, pre-forfeiture hearing in front of a neutral decision-maker.
4. It can take months, or even years, for the Defendants to initiate a case in state court seeking forfeiture of the vehicle.

App. 64
5. During this undetermined period of time, following the warrantless seizure and prior to the Defendants’ initiation of forfeiture civil proceedings,
persons with an interest in the seized vehicle are left
without access and use of the vehicle and without a
procedure or remedy for testing the law enforcement
ofﬁcer’s determination of probable cause to seize the
vehicle, the likelihood of the government would be successful in the contemplated forfeiture case, and seek
return of the vehicle pending resolution of the contemplated forfeiture case.1
6. The importance of continued access to a vehicle cannot be overstated. A vehicle is frequently required to travel to and from work, to transport children
and to perform other necessities of life. Additionally, a
vehicle is a rapidly depreciating asset under all circumstances. Moreover, if the vehicle is under lease or
subject to a loan, the owner or leaseholder is required
to continue to make payments and insurance payments to avoid a breach of their lease or purchase
agreement.
7. The Due Process Clause of the Fourteenth
Amendment to the United States Constitution requires that a person with an interest in property seized
without a warrant or a pre-deprivation hearing be provided a prompt post-deprivation hearing in front of a
1

Repliven is barred by the applicable forfeiture statutes. See
Public Health Code, MCL 333.7533(2); Identity Theft Protection
Act, MCL 445.79b. No adequate remedy is provided by statute or
court rule that would allow a person of interest to obtain a hearing and/or recovery of the seized vehicle.

App. 65
neutral-decision maker. In regards to vehicles seized
and noticed for forfeiture, the Defendants are required
to provide a prompt post-seizure, pre-forfeiture hearing in front of a neutral decision-maker on whether
there is probable cause for the seizure, the likelihood
of the government being successful in the contemplated forfeiture case and whether the vehicle can be
returned to the interested party prior to resolution of
the contemplated forfeiture case.
8. As a result of Defendants’ policy, practice
or custom of not providing prompt post-seizure, preforfeiture hearings in front of a neutral decisionmaker, the Defendants caused the Plaintiffs and
similarly situated persons’ rights to due process pursuant to the Fourteenth Amendment to the United
States Constitution to be violated, and are liable to
the Plaintiffs and similarly situated persons under 42
U.S.C. § 1983 of the Civil Rights Act of 1871.
JURISDICTION AND VENUE
9. Original and supplemental jurisdiction is conferred by 28 U.S.C. § 1331 (federal question), 28 U.S.C.
§ 1343 (civil rights), and 28 U.S.C. § 1332(d) (class action).
10. Venue is proper pursuant to 28 U.S.C. § 1391,
since all Defendants reside or are located and/or doing
business in the Eastern District of Michigan and the
events giving rise to this action occurred, in signiﬁcant
part, within this District.

App. 66
PARTIES
11. Plaintiff Stephen Nichols is over 18 years-old
and a resident of Westland, Michigan.
12. Plaintiff Adam Chappell, Jr. (“Adam Chappell”) is over 18 years-old and a resident of Detroit,
Michigan.
13. Plaintiff Ryan Chappell is over 18 years-old
and a resident of Detroit, Michigan.
14. Defendant Wayne County is a municipal corporation organized under the laws of the State of Michigan that is located in Wayne County, Michigan.
15. Defendant Wayne County Prosecutor’s Ofﬁce
is a municipal corporation organized under the laws of
the State of Michigan that is located in Wayne County,
Michigan.
16. Defendant Kym Worthy, was at all times of
the matters complained of herein the Wayne County
Prosecutor for the County of Wayne. She is sued in her
individual and ofﬁcial capacity.
17. Defendant Wayne County Sheriff ’s Ofﬁce is
a municipal corporation organized under the laws of
the State of Michigan that is located in Wayne County,
Michigan.
18. Defendant City of Lincoln Park (“Lincoln
Park”) is a municipal corporation organized under the
laws of the State of Michigan that is located in Wayne
County, Michigan.

App. 67
STATEMENT OF FACTS
a. Plaintiff Stephen Nichols
19. On July 2, 2015, Plaintiff Nichols was subject
to a trafﬁc stop by a City of Lincoln Park police ofﬁcer.
20. The Lincoln Park police officer seized Nichols’
vehicle, without a warrant and without a pre-deprivation
hearing, after he alleged that the insurance certiﬁcate
was invalid and served Nichols with a form notice indicating that Lincoln Park intended to forfeit the vehicle under the forfeiture provisions of Michigan’s
Identity Theft Protection Act, (ITPA), MCL 445.61, et
seq, and that to contest the forfeiture the owner of the
vehicle would have to ﬁle a claim of interest with Lincoln Park along with a $250.00 money order payable to
the Wayne County Prosecutor’s Ofﬁce.
21. Nichols was charged with operating without
insurance to which he pled responsible.
22. On July 10, 2015, Nichols ﬁled a claim of interest with Lincoln Park and posted a bond with it for
$250.00 made payable to the Wayne County Prosecutor’s Ofﬁce in order to contest the forfeiture.
23. Defendants failed to provide Nichols with a
prompt post-seizure, pre-forfeiture hearing in front of
a neutral decision-maker.
24. Almost 3 years has now passed since the seizure without process and the Defendants have not ﬁled
a civil forfeiture case against Nichols’ vehicle.

App. 68
25. To this day, Nichols’ vehicle remains in the
custody of the Defendants
26. Nichols has been and continues to be damaged by the Defendants’ failure to provide a prompt
post-deprivation hearing because he has been unnecessarily deprived of the use of his vehicle, the opportunity to perform necessary maintenance on it,
expended money on insurance for a vehicle that he
can’t use, and has been forced to pay for rides, use taxis
and inconvenient public transit to get to and from work
and perform daily necessities of life.
b. Plaintiffs Adam Chappell and Ryan Chappell
27. Plaintiff Adam Chappell owned a vehicle
that he lent to his son, Plaintiff Ryan Chappell, for his
personal use and in furtherance of his son’s welding
business.
28. On July 27, 2016, Plaintiff Ryan Chappell
was subject to an investigative stop by a Wayne County
Sheriff ’s Ofﬁce deputy after he was seen visiting a
medical marijuana facility in the City of Detroit, while
driving Plaintiff Adam Chappell ‘s vehicle.
29. Plaintiff Adam Chappell’s vehicle was seized,
without a warrant and without a hearing, and towed
from the scene and Ryan Chappell was provided with
a form notice indicating that the Wayne County Sheriff ’s Ofﬁce intended to forfeit the vehicle under the forfeiture provisions of the Michigan Public Health Code,
MCL 333.7521, et seq. and that the owner was required

App. 69
to ﬁle a claim and post a $250.00 bond with the Wayne
County Prosecutor’s Ofﬁce to contest the forfeiture.
30. No marijuana was recovered and no criminal
charges were brought.
31. On August 11, 2016, Plaintiff Adam Chappell
ﬁled a claim and posted a $250.00 bond with Wayne
County Prosecutor’s Ofﬁce in order to contest the forfeiture.
32. Defendants failed to provide Plaintiffs Adam
Chappell and Ryan Chappell with a prompt postseizure, pre-forfeiture hearing in front of a neutral
decision-maker.
33. On October 7, 2016, 72 days following the
seizure, Wayne County Prosecutor’s Ofﬁce ﬁled a complaint in Michigan’s Third Circuit Court, which alleged
that Adam Chappell ‘s vehicle was subject to forfeiture
for a violation of the Michigan Controlled Substances
Act, MCL 333.7521, et seq.
34. On January 31, 2017, Plaintiff Adam Chappell
ﬁled a motion to dismiss after the Wayne County Prosecutor’s Ofﬁce failed to comply with a court order to
answer his discovery requests
35. On February 10, 2017, the court entered a
stipulated order dismissing the forfeiture complaint
and ordering the return of Chappell’s bond and his
vehicle without payment of any towing or storage fees.
36. On February, 23, 2017, Adam Chappell was
able to retrieve his vehicle from Martin’s Towing and

App. 70
discovered that the driver’s side window of the vehicle
had been left down, the battery was dead, the tires
were ﬂat, that damage to the exhaust and transmissions systems had been caused and marks left on the
undercarriage of the vehicle consistent with the vehicle having been lifted by a fork lift.
37. Plaintiffs Adam Chappell and Ryan Chappell
were damaged by the Defendants failure to provide a
prompt post-deprivation hearing because they were
unnecessarily deprived of their use of the vehicle, the
opportunity to perform necessary maintenance on it,
guard it from damage and access to Ryan Chappell’s
welding work tools contained within the vehicle.
CLASS ACTION ALLEGATIONS
38. The named Plaintiffs bring this action, on
behalf of themselves and all others similarly situated,
to assert the claims alleged in this Complaint on a common basis
39. A class action is a superior means, and the
only practicable means, by which the named Plaintiffs
and Class Members can challenge Defendants’ failure
to provide prompt post-seizure, pre-forfeiture hearings
in front of a neutral decision-maker on vehicles seized
without process and noticed for forfeiture.
40. This action is brought and may properly
be maintained as a Class action pursuant to Rule
23(a)(1)–(4) and Rule 23(b)(1)-(3) of the Federal Rules
of Civil Procedure.

App. 71
41. This action satisﬁes the numerosity, commonality, typicality, and adequacy requirements of
those provisions.
42. The Class is deﬁned as: all persons who had
a vehicle seized without a warrant or a pre-deprivation
hearing where that vehicle was noticed and held for
forfeiture and where those persons with an interest
in the vehicle were not provided with a prompt postseizure, pre-forfeiture hearing in front of a neutral
decision-maker.
43. On information and belief, Defendants notice
for forfeiture hundreds of vehicles every year, hold
them without process, and fail, in each case, to provide
prompt post-seizure, pre-forfeiture hearing in front of
a neutral decision-maker.
44. The relief sought is common to all Class
Members, and common questions of law and fact exist
as to all Class Members. The named Plaintiffs seek relief concerning whether the failure to provide prompt
post-seizure, pre-forfeiture hearings in front of a neutral decision-maker violated the rights of Plaintiffs
and Class Members, declaratory relief that the practice is in violation of the US Constitution and injunctive relief mandating that Defendants provide
procedures consistent with due process, so that the
rights of the Class Members will be protected in the
future and additionally, obtaining appropriate damages, compensation and other equitable remedies.
45. These common legal and factual questions
arise from the Defendants’ failure to provide prompt

App. 72
post-seizure, pre-forfeiture hearings to determine if
probable cause exists to retain possession of vehicles
seized without process, the likelihood of Defendants
prevailing in the contemplated forfeiture case, and to
determine if the vehicle might be returned pending the
outcome of the contemplated forfeiture case.
46. The essential facts and legal issues do not
vary from Class Member to Class Member and the resolution of these legal and factual issues will determine
whether all Class Members are entitled to the relief
they seek.
47. The named Plaintiffs’ claims are typical of
the other Class Members’ claims and they have the
same interests in this case as all other Class Members.
Each Class Member had a vehicle seized without a
warrant or a pre-deprivation hearing and the vehicle
was noticed for forfeiture. Each Class Member had an
identiﬁable interest in the seized vehicle. Each Class
Member was damaged when a prompt post-seizure,
pre-forfeiture hearing in front of a neutral decisionmaker was not provided. The answer of whether Defendants’ failure to provide prompt post-seizure, preforfeiture hearings in front of a neutral decision-maker
is a violation of the Due Process Clause will determine
the claims of the named Plaintiffs and every other
Class Member.
48. If the named Plaintiffs succeed in their
claims against Defendants that ruling will likewise
beneﬁt every other Class Member.

App. 73
49. The named Plaintiffs are adequate representatives of the Class because their interests in the
vindication of the legal claims that they raise are entirely aligned with the interests of the other Class
Members, who each have the same basic claims. They
are members of the Class, and their interests coincide
with, and are not antagonistic to, those of the other
Class Members
50. There are no known conﬂicts of interest
among Class Members, all of whom have a similar interest in vindicating their rights in the face of Defendants’ failure to provide due process and recovering
compensation.
51. Plaintiff ’s counsel has experience litigating
constitutional and civil rights matters in Federal
Court and has relevant experience as class action
counsel.
52. Class action status is appropriate because
Defendants have acted in the same manner with respect to all Class Members and prosecution of separate
actions by individual members would create a risk of
adjudications with respect to individual class members
that, as a practical matter, would be dispositive of the
interests of the other members not parties to the individual adjudications or would substantially impair or
impede their ability to protect their interests.
53. The Class also seeks a declaratory judgment
on the unconstitutionality of Defendants practice and
injunctive relief to enjoin Defendants to require that
prompt post-seizure, pre-forfeiture hearings. Because

App. 74
the putative Class challenges the Defendants’ failure
to provide these hearings through declaratory and injunctive relief that same relief would apply to every
Class Member, Rule 23(b)(2) certiﬁcation is appropriate and necessary.
54. Injunctive relief compelling Defendants to
comply with due process will similarly protect each
Class Member from being subjected to Defendants’ unlawful policies and practices in the future. A declaration and injunction stating that Defendants must
provide such hearings would provide relief to every
Class Member. Therefore, declaratory and injunctive
relief with respect to the Class as a whole is appropriate.
COUNT I
Municipal Liability for Violations of the
Fourteenth Amendment to the U.S. Constitution
(42 U.S.C. § 1983)
55. Plaintiffs hereby incorporate by reference
herein all paragraphs of this Complaint, as if fully
state herein.
56. Under 42 U.S.C. § 1983, Defendants Wayne
County, Wayne County Prosecutor’s Ofﬁce, Wayne
County Sheriff ’s Ofﬁce, City of Lincoln Park, and Kym
Worthy are each a “person” liable for their unconstitutional practices, customs, policies, or patterns that result in constitutional violations.

App. 75
57. Each of the Defendants had and has an unconstitutional practice, custom, policy, and pattern of
failing to provide prompt post-seizure, pre-forfeiture
hearings in front of a neutral decision-maker where
Plaintiffs and similarly situated persons had vehicles
seized without a warrant or a pre-deprivation hearing
and were persons who had an interest in the vehicle.
58. Defendants’ practice, custom, policy, pattern
or decision was a direct and proximate cause of the constitutional violations suffered by Plaintiffs and similarly situated persons.
59. The Defendants violated Plaintiffs’ and similarly situated persons’ due process rights, pursuant to
the Fourteenth Amendment, which requires a prompt
post-deprivation hearing in front of a neutral decisionmaker where property is seized without a warrant or a
pre-deprivation hearing.
60. Defendants are liable under a municipal liability theory for these violations.
61. Qualiﬁed immunity is not available to municipal Defendants
62. Defendant Kym Worthy was the ﬁnal policy
maker for the municipal Defendants and responsible
for this unconstitutional practice, custom, policy and
pattern. Further, Defendant Worthy failed to train and
supervise attorneys acting for the Defendants in the
need to perform their administrative duties to provide for prompt post-seizure, pre-forfeiture hearings in
front of a neutral decision-maker.

App. 76
WHEREFORE Plaintiffs pray this Honorable
Court enter Judgment against Defendants and award
Plaintiffs and similarly situated persons damages in
such amount as to adequately compensate them along
with their attorneys’ fees and costs pursuant to 42
U.S.C. §1988.
Count II
Declaratory and Injunctive Relief
63. Plaintiffs hereby incorporate by reference
herein all Paragraphs of this Complaint, as if fully
state herein.
64. Plaintiffs and similarly situated persons
seek a declaratory judgment that Defendants’ policies,
practices, customs, acts and/or omissions as described
herein are unlawful and violate their rights under the
U.S. Constitution.
65. An order and judgment preliminarily and
permanently enjoining Defendants, their subordinates, agents, employees, representatives, and all others from acting or purporting to act for them from
retaining possession of vehicles seized without process
and noticed for forfeiture where a prompt post-seizure,
pre-forfeiture hearing in front of a neutral decisionmaker was not held.
66. An order and judgment preliminarily and
permanently enjoining Defendants to provide prompt
post-seizure, pre-forfeiture proceeding hearings in
front of a neutral decision-maker on vehicles seized

App. 77
without process and noticed for forfeiture and compelling that a process be set, consistent with due
process, to ensure that these necessary prompt postdeprivation hearings occur.
PLAINTIFFS’ JURY DEMAND
Plaintiffs, on behalf of themselves and all others
persons similarly situated, known and unknown, and
by and through counsel demand a trial by jury in the
above-captioned matter on all issues so triable.
Respectfully submitted,
GODWIN LEGAL SERVICES, PLC,
/s/ Shaun P. Godwin
By: Shaun P. Godwin (P74500)
Attorney for Plaintiffs
450 W. Fort St, Ste 200
Detroit MI 48226
313-288-2826/Fax 313-457-1670
shaun@godwinlegal.com
Dated: 6/27/2018

